                                              OCCUPATIONAL SAFETY AND
                                              HEALTH ADMINISTRATION
Office of Inspector General—Office of Audit




                                              EMPLOYERS WITH REPORTED FATALITIES WERE
                                              NOT ALWAYS PROPERLY IDENTIFIED AND
                                              INSPECTED UNDER OSHA’S ENHANCED
                                              ENFORCEMENT PROGRAM




                                                                  Date:          March 31, 2009
                                                                  Report Number: 02-09-203-10-105
U.S. Department of Labor                                        March 2009
Office of Inspector General
Office of Audit                                                 EMPLOYERS WITH REPORTED FATALITIES
                                                                WERE NOT ALWAYS PROPERLY IDENTIFIED
                                                                AND INSPECTED UNDER OSHA’S ENHANCED
BRIEFLY…                                                        ENFORCEMENT PROGRAM
Highlights of Report Number 02-09-203-10-105, to the
Deputy Assistant Secretary for Occupational Safety and          WHAT OIG FOUND
Health                                                          For EEP qualifying employers with fatalities, OSHA did
                                                                not always properly identify and conduct cases
WHY READ THE REPORT                                             according to EEP requirements. For 97 percent of
The Office of Inspector General (OIG) conducted a               sampled EEP qualifying cases, OSHA did not comply
performance audit of the Enhanced Enforcement                   with EEP requirements for at least one of the following:
Program (EEP) of the Occupational Safety and Health             designating EEP cases, inspections of related worksites,
Administration (OSHA). In 2003, OSHA established EEP            enhanced follow-up inspections, and enhanced
for employers indifferent to their obligations under the        settlement provisions. Moreover, OSHA designated
Occupational Safety and Health Act of 1970 thereby              29 EEP cases, but did not take any of the appropriate
placing their employees at risk. In 2008, OSHA revised          enhanced enforcement actions. Sixteen of the
the EEP criteria to focus the program on employers with         29 employers subsequently had 20 fatalities, of which
qualifying OSHA history, i.e., prior fatality and similar in-   14 fatalities were in cases that shared similar violations
kind violations, which effectively reduced the number of        as the EEP qualifying cases.
EEP qualifying cases.
                                                                Furthermore, the qualifying history component of the
OSHA’s mission is “… to promote the safety and health           2008 revised directive reduced the number of cases;
of America's working men and women….” With work-                delayed designation; and increased the risk that
related fatalities averaging 5,680 annually, it is essential    employers with multiple EEP qualifying and/or fatality
that OSHA target its limited resources to inspect               cases may not be properly designated due to the lack of
workplaces with the highest risk of hazardous conditions.       quality history data. As a result, fewer employers may be
If fully implemented, EEP has the potential for achieving       subjected to EEP enhanced enforcement actions and
this purpose as it was designed to identify high-risk           may incur more fatalities before designation occurs.
employers and target their worksites with increased
enforcement attention.                                          OSHA has not placed the appropriate management
                                                                emphasis and resources on this program to ensure
WHY OIG CONDUCTED THE AUDIT                                     indifferent employers were properly designated for EEP
Our audit objectives were to analyze Federal inspections        and subject to enhanced enforcement actions. By more
from October 1, 2003, through March 31, 2008, and               effectively utilizing the EEP program, OSHA could
answer the following:                                           potentially reduce the risk of future injuries, illnesses,
                                                                and fatalities. While we cannot conclude that enhanced
1. Were establishments properly identified as EEP               enforcement would prevent subsequent fatalities, full
   cases and were inspections conducted in                      and proper application of EEP procedures may have
   accordance with OSHA’s EEP Directives?                       deterred and abated workplace hazards at the worksites
                                                                of 45 employers where 58 subsequent fatalities
2. Does OSHA’s January 2008 revised EEP Directive               occurred.
   have an adverse impact on the EEP and its ability to
   protect the American worker?                                 WHAT OIG RECOMMENDED
                                                                The OIG made six recommendations to the Deputy
The audit focused on EEP designation, enhanced follow-          Assistant Secretary for Occupational Safety and Health.
up inspections, inspections of related worksites,               Foremost among our recommendations were to form a
enhanced settlement provisions, and National Office             task force to make recommendations to improve
coordination activities.                                        program efficiency and effectiveness, revise the EEP
                                                                directive, and provide formal training.
READ THE FULL REPORT
To view the report, including the scope, methodology,           In his response to the draft report, the Deputy Assistant
and full agency response, go to:                                Secretary generally agreed with the recommendations
                                                                and believed they would allow OSHA to make important
http://www.oig.dol.gov/public/reports/oa/2009/02-09-203-        improvements to the program.
10-105.pdf
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                           OSHA Enhanced Enforcement Program
                                  Report No. 02-09-203-10-105
                                                              U.S. Department of Labor – Office of Inspector General


Table of Contents
Assistant Inspector General’s Report ......................................................................... 1

Results In Brief .............................................................................................................. 2

Objective 1 – Were Establishments Properly Identified As EEP Cases And
Were Inspections Conducted In Accordance With OSHA’s EEP Directives? .......... 3

         Finding 1 –         OSHA Did Not Properly Designate 53 Percent of Sampled EEP
                             Qualifying Cases and 24 Employers had 33 Subsequent
                             Fatalities.......................................................................................... 4

         Finding 2 –         OSHA Generally Did Not Inspect Related Worksites for
                             Sampled EEP Qualifying Cases and 34 Employers had
                             47 Subsequent Fatalities at Other Worksites .................................. 6

         Finding 3 –         OSHA Did Not Conduct Proper Follow Up on 52 Percent of
                             Sampled EEP Qualifying Cases and 5 Subsequent Fatalities
                             Occurred at the Same Worksite ...................................................... 8

         Finding 4 –         OSHA Generally Did Not Utilize Enhanced Settlement
                             Provisions Effectively for Sampled EEP Qualifying Cases and
                             45 Employers had 32 Subsequent Fatalities................................... 9

         Finding 5 –         OSHA Has No Specific Criteria for Issuing National Office EEP-
                             Alert Memorandum on Employers with Worksites Across
                             Regions and/or States................................................................... 10

Objective 2 – Does OSHA’s January 2008 Revised EEP Directive Have An
Adverse Impact On The EEP And Its Ability To Protect The American
Worker?........................................................................................................................ 10

         Finding 6 –         Less EEP Qualifying Cases Means Fewer Employers Subject to
                             EEP Activities and Greater Risk for Subsequent Fatalities ........... 11

         Finding 7–          Issues in Determining Employer History Delayed Designation
                             and Increased Risk That Employers May Not Be Properly
                             Designated .................................................................................... 11

         Finding 8 –         OSHA Continued to Not Properly Designate and Conduct EEP
                             Cases............................................................................................ 13

         Finding 9 –         Criteria Gaps May Mean Delayed EEP Designation and
                             Additional Fatalities ....................................................................... 13

                                                                                OSHA Enhanced Enforcement Program
                                                                                       Report No. 02-09-203-10-105
                                                         U.S. Department of Labor – Office of Inspector General


Recommendations ...................................................................................................... 15

Exhibits

         Exhibit 1 – Sampled Federal Inspections for the Period October 1, 2003
                     Through March 31, 2008 .................................................................. 19

         Exhibit 2 – 2008 Fatality Cases With EEP Designation Issues........................... 25

Appendices

         Appendix A – Background .................................................................................. 29

         Appendix B – Objectives, Scope, Methodology, and Criteria ............................. 31

         Appendix C – Acronyms and Abbreviations ....................................................... 37

         Appendix D – Glossary of Terms........................................................................ 39

         Appendix E – OSHA Response to Draft Report.................................................. 43




                                                                           OSHA Enhanced Enforcement Program
                                                                                  Report No. 02-09-203-10-105
                                                   U.S. Department of Labor – Office of Inspector General

U.S. Department of Labor                             Office of Inspector General
                                                     Washington, DC 20210




March 31, 2009


                              Assistant Inspector General’s Report



Mr. Donald G. Shalhoub
Deputy Assistant Secretary for
  Occupational Safety and Health
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

On September 30, 2003, the Occupational Safety and Health Administration (OSHA)
established the Enhanced Enforcement Program (EEP) for employers indifferent to their
obligations under the Occupational Safety and Health Act of 1970 (OSH Act) thereby
placing their employees at risk. These employers were identified from any type of
inspection where cited violations were: serious and high gravity violations related to
fatalities; willful and/or repeat violations; or failure-to-abate citations where the employer
did not address previously cited hazards. Once identified, EEP cases receive additional
enforcement efforts such as enhanced follow-up inspections, inspections of other
workplaces of the employer, and more stringent settlement terms.

After four years of implementation, OSHA revised the program and issued OSHA
Enforcement and Complaint Directive (CPL) 02-00-145, Enhanced Enforcement
Program (EEP), effective on January 1, 2008. Under the revised program, the purpose
of EEP remained the same, but the targeting criteria incorporated a key component of
qualifying OSHA history, i.e., prior fatality and similar in-kind violations, which effectively
reduced the number of EEP qualifying cases.

OSHA’s mission is “… to promote the safety and health of America's working men and
women….” The Bureau of Labor Statistics (BLS) continues to report significant levels of
work-related fatalities, averaging 5,680 for the last 5 years. 1 (OSHA stated that less
than 20 percent of BLS reported fatalities occurred in Federal OSHA covered
workplaces.) Therefore, it is essential that OSHA target its limited resources to inspect
workplaces with the highest risk of hazardous conditions that have greater potential to
cause injuries and fatalities. If fully implemented, EEP has the potential for achieving
this purpose as it was designed to identify high-risk employers and target their worksites
with increased enforcement attention.


1
    U.S. Department of Labor, BLS, National Census of Fatal Occupational Injuries, August 20, 2008

                                                                     OSHA Enhanced Enforcement Program
                                                     1                      Report No. 02-09-203-10-105
                                           U.S. Department of Labor – Office of Inspector General

The objectives of this audit were to answer the following questions:

   1. Were establishments properly identified as EEP cases and were inspections
      conducted in accordance with OSHA’s EEP Directives?

   2. Does OSHA’s January 2008 revised EEP Directive have an adverse impact on
      the EEP and its ability to protect the American worker?

The scope of our audit was Federal inspections conducted between October 1, 2003,
and March 31, 2008 for the Atlanta, Chicago, and Dallas regions. We sampled 325
inspections – 282 EEP qualifying inspections and 43 inspections that did not qualify
under EEP. The samples included 75 employers with multiple EEP qualifying and/or
fatality cases. Our analysis of OSHA's 2008 revised criteria covered the period
January 1, 2008, through November 19, 2008.

We reviewed inspection case files, OSHA’s Integrated Management Information System
(IMIS) online data and EEP log entries. We evaluated OSHA internal controls pertaining
to the classification and management of EEP cases, and assessed the reliability of
inspection data maintained in IMIS. We reviewed OSHA policies and procedures;
interviewed managers and staff at National, Regional and Area Offices; reviewed
reports on IMIS controls; conducted tests of IMIS data accuracy; and reviewed internal
monitoring reports.

We conducted our audit in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a sufficient basis for our findings and conclusions based on our audit
objectives. Our objectives, scope, methodology, and criteria are detailed in Appendix B.

RESULTS IN BRIEF

For EEP qualifying employers with fatalities, OSHA did not always properly identify and
conduct cases according to EEP requirements. For 97 percent of sampled EEP
qualifying cases, OSHA did not comply with EEP requirements for at least one of the
following: designating EEP cases, inspections of related worksites, enhanced follow-up
inspections, and enhanced settlement provisions. Moreover, OSHA designated 29 EEP
cases, but did not take any of the appropriate enhanced enforcement actions. Sixteen of
the 29 employers subsequently had 20 fatalities, of which 14 fatalities were in cases
that shared similar violations.

Furthermore, the qualifying history component of the 2008 revised directive reduced the
number of cases; delayed designation; and increased the risk that employers with
multiple EEP qualifying and/or fatality cases may not be properly designated due to the
lack of quality history data. As a result, fewer employers may be subjected to EEP
enhanced enforcement actions and may incur more fatalities before designation occurs.


                                                         OSHA Enhanced Enforcement Program
                                            2                   Report No. 02-09-203-10-105
                                                 U.S. Department of Labor – Office of Inspector General


OSHA has not placed the appropriate management emphasis and resources on this
program to ensure indifferent employers were properly designated for EEP and subject
to enhanced enforcement actions. By more effectively utilizing the EEP program, OSHA
could potentially reduce the risk of future injuries, illnesses, and fatalities. While we
cannot conclude that enhanced enforcement would prevent subsequent fatalities, full
and proper application of EEP procedures may have deterred and abated workplace
hazards at the worksites of 45 employers where 58 subsequent fatalities occurred.

In his response to the draft report, the Deputy Assistant Secretary expressed concerns
over the report conclusion that the program lacked appropriate management emphasis.
He stated that OSHA EEP was a relatively new program, developed to supplement
enforcement activity to focus on “recalcitrant employers,” and that the Agency was
aware that the program had shortcomings which it continues to address. He also
expressed concern that the inclusion of subsequent fatalities in Findings 1 through 4
may lead to an inference that the lack of a workplace inspection resulted in a fatality, an
inference that OSHA finds to be both misleading and unfair.

With regard to the specific report recommendations, OSHA generally agreed with the
recommendations and believed they would allow OSHA to make important
improvements to the program. OSHA’s response to the draft report is included in its
entirety in Appendix E.

RESULTS AND FINDINGS

Objective 1 – Were Establishments Properly Identified as EEP Cases and Were
Inspections Conducted in Accordance With OSHA’s EEP Directives?

OSHA did not always properly identify and conduct EEP inspections of qualifying
employers with fatalities. For 97 percent of sampled EEP qualifying cases, OSHA did
not comply with EEP requirements for at least one of the following: designating EEP
cases, inspections of related worksites, enhanced follow-up inspections, and enhanced
settlement provisions. Additionally, no specific criterion existed for the issuance of
National Office EEP-Alert Memoranda on multi-state employers. The EEP-Alert
Memoranda were issued when the National Office deemed it necessary to notify
Regional Administrators and State Designees of the activity of a particular employer
with many worksites across regions and/or states. This occurred because OSHA did not
place the appropriate management emphasis on compliance, commit the necessary
resources, and provide clear policy guidance. Full and proper application of EEP
procedures may have deterred and abated workplace hazards at the worksites of
45 employers where 58 subsequent fatalities occurred. 2 See Exhibit 1 for details.




2
  The 58 subsequent fatalities may be presented in one or more findings as the cases had overlapping
issues.

                                                                OSHA Enhanced Enforcement Program
                                                   3                   Report No. 02-09-203-10-105
                                                     U.S. Department of Labor – Office of Inspector General

Finding 1 – OSHA Did Not Properly Designate 53 Percent of Sampled EEP
Qualifying Cases and 24 Employers had 33 Subsequent Fatalities

The EEP program lacked management emphasis as OSHA management did not
ensure indifferent employers were properly designated for the program. Specifically,
OSHA did not properly designate 149 of 282 (53 percent) sampled EEP qualifying
cases. This occurred due to Area Office staff misunderstanding EEP requirements and
coding errors in OSHA’s IMIS. According to the directive, any inspection meeting EEP
criteria when citations were issued is considered an enhanced enforcement case. As a
result, cases that were not properly designated were not subject to the full range of EEP
actions, which may have provided the necessary deterrent and abatement to address
violations at worksites of employers where subsequent fatalities occurred.

The 2003 criteria, Priority Enforcement Case, 3 and 2008 criteria, Section XI, Criteria for
an Enhanced Enforcement Case, 4 define an EEP qualifying case as “…any inspection
that meets one or more of the following criteria at the time the citation is issued.”

                       2003 Criteria                                      2008 Criteria
        A Fatality inspection in which OSHA finds         Fatality inspection with one or more willful
        a high gravity serious (or willful, or            or repeated (serious any gravity)
        repeat) violation related to the death.           violations related to the death.
                                                          Fatality inspection with one or more
                                                          serious (any gravity) violations related to
                                                          the death; and the employer has an
              (No similar provision in 2003.)
                                                          OSHA history of similar in-kind violations
                                                          (serious, willful, or repeat) within the last
                                                          three years.
                                                          Fatality inspection with one or more
                                                          serious violations related to the death; and
              (No similar provision in 2003.)
                                                          the employer had another fatality within
                                                          the last three years.
        Inspection with three or more high                Inspection with three or more willful and/or
        gravity, willful and/or repeat violations.        repeat violations (any gravity); and the
                                                          employer has an OSHA history of similar
                                                          in-kind violations within the last three
                                                          years.
        Inspection that results in two failure-to-        Inspection that results in one or more
        abate notices where the underlying                failure-to-abate notices where the
        violations were classified as high gravity        underlying violations were classified as
        serious.                                          serious, any gravity.
              (No similar provision in 2003.)             Any egregious case

Designation as EEP is the first step, accomplished by adding a code into OSHA’s IMIS
and an entry in the EEP log. The EEP log is used by OSHA as a management tool to
coordinate National EEP activities. However, OSHA does not have controls to ensure

3
  Memorandum to Regional Administrators from R. Davis Layne, Deputy Assistant Secretary, Subject:
Interim Implementation of OSHA's Enhanced Enforcement Program (EEP), dated September 30, 2003
4
  OSHA Instruction CPL 02-00-145, Enhanced Enforcement Program (EEP), effective January 1, 2008

                                                                       OSHA Enhanced Enforcement Program
                                                      4                       Report No. 02-09-203-10-105
                                           U.S. Department of Labor – Office of Inspector General

EEP cases are designated in both IMIS and the EEP log. Specifically, 149 sampled
EEP qualifying cases were not properly designated:

      •   104 were not designated in either IMIS or the EEP log.
      •   34 were in IMIS, but were missing from the EEP log.
      •   11 were in the EEP log, but were missing from IMIS.

Several Regional and Area Office staff indicated that there was no formal training on
EEP, which led to misunderstandings of its requirements. For example, one area office
missed designating 11 of 12 sampled EEP qualifying cases. The Area Office Director
stated staff mistakenly believed that EEP cases were not designated until the final order
of settlement. As a result, several cases went undesignated as the office was focused
on current inspections when final orders were received, which occurred on average
6 months after the case was contested. Other cases incorrectly went undesignated
because staff expected a case to be contested when it was not. The Area Office
Director claimed he instructed the staff on proper designation.

Furthermore, OSHA does not have overall controls to ensure EEP cases are properly
coded in IMIS and entered in the EEP log. Some Regional Offices instituted localized
controls with some success. For example, Chicago used an IMIS coding table and
correctly designated 73 percent of the region’s sampled EEP qualifying cases in IMIS.

The effect of not designating an EEP case is compounded when the case involved an
employer with multiple EEP qualifying and/or fatality cases as EEP actions may have
provided the necessary deterrent and abatement to address violations and possibly
prevent subsequent fatalities. Of 75 employers with multiple EEP qualifying and/or
fatality cases, 51 employers (68 percent) had at least one case that was not properly
designated as EEP, and 24 of the employers (32 percent) had 33 fatalities subsequent
to the case that was not properly designated. For the 24 employers with subsequent
fatalities, 3 (13 percent) did not have proper follow up and 17 (71 percent) did not have
proper consideration of related worksite inspections.

An example of the effect of not designating the first EEP qualifying case was the
Tennessee Valley Authority (TVA). TVA had two fatality inspections that were not
properly designated in IMIS and the EEP log. The fatalities occurred in different
locations and shared similar violations. OSHA rated TVA’s safety and health plan as
less than average, yet it did not properly perform follow up or consider related worksite
inspections. If the first case had been properly designated, the resulting EEP actions
may have deterred and abated hazards at a TVA worksite where a subsequent fatality
occurred.




                                                         OSHA Enhanced Enforcement Program
                                            5                   Report No. 02-09-203-10-105
                                                 U.S. Department of Labor – Office of Inspector General

Finding 2 – OSHA Generally Did Not Inspect Related Worksites for Sampled EEP
Qualifying Cases and 34 Employers had 47 Subsequent Fatalities at Other
Worksites

OSHA generally did not inspect related worksites when company-wide safety and health
issues indicated workers at other employer worksites were at risk for serious injury or
death. OSHA did not properly consider related worksite inspections for 226 of 282
(80 percent) sampled EEP qualifying inspections. In our sampled cases, 34 employers
had 47 additional fatalities at related worksites. Inspections may have deterred and
abated hazards at these worksites. Under EEP directives, related worksite inspections
were to be used to determine whether compliance problems in the EEP case were
indicative of a company-wide problem. OSHA either did not commit the necessary
resources or lacked information on other worksites needed to perform the inspections. If
used proactively, alternate worksite inspections could be effective in protecting
employees.

Related worksite inspections can include both comprehensive inspections under
OSHA’s Site Specific Targeting (SST) program and the less comprehensive, alternate
worksite inspections which focus mainly on hazards related to those identified in the
EEP case.

    •   SST Program Inspections - Under the 2003 EEP criteria, section B.1, “… any
        related establishments of the same employer that are on that year's SST
        secondary list will be moved to the primary list.” Under the 2008 criteria, section
        XII.B.1 and XII.B.2, “All related establishments of the same employer that are on
        the current year's SST primary or secondary lists … will be moved … to the
        current inspection cycle …” Area Offices are required to complete all SST
        inspections in the current inspection cycle. Therefore, a comprehensive SST
        inspection would be conducted under the 2008 EEP criteria, where as it only may
        have been conducted under the 2003 EEP criteria if the Area Office opened the
        specific cycle with the EEP employer’s related establishments. 5

    •   Alternate Worksite Inspections – The criteria was substantially similar for 2003
        (section B.2 and B.3) as it was for 2008 (section XII.B.3 and XII.B.4). Other
        related sites of the same employer (those not on the current SST inspection lists)
        may be inspected if the Regional Administrator determines that there are
        reasonable grounds to believe problems similar to those found in the enhanced
        enforcement case may exist at the other worksites. OSHA must first determine
        whether compliance problems and issues found during the initial EEP case are
        localized or are likely to exist at other, similar facilities owned and operated by
        that employer. Alternate worksite inspections may then be conducted.




5
  SST program groups the planned inspections by primary and secondary lists, and further by cycles
(groups of specific worksites). When the Area Office opens a cycle, it is called the current cycle.

                                                                 OSHA Enhanced Enforcement Program
                                                   6                    Report No. 02-09-203-10-105
                                           U.S. Department of Labor – Office of Inspector General

Site Specific Targeting Program Inspections

Only 40 sampled EEP qualifying employers were also targeted under SST, the program
which focuses on industries and employers with high rates of injuries and illnesses. EEP
requirements (2003 criteria, section B.1, and 2008 criteria, section XII.B.2) state all
related establishments of the EEP employer on the current year's SST lists will be
identified and moved up in priority for inspection. Eight EEP qualifying employers were
concurrently on SST lists, but did not receive the required comprehensive SST safety
inspection. Two employers without SST inspections had fatalities before and after they
were on SST lists.

   •   Central Industries had two fatality cases which were not properly designated as
       EEP. OSHA rated the company’s safety and health plan as “inadequate,” but did
       not consider related worksite inspections. Central Industries was on the
       secondary SST lists for 2006 and 2007, but OSHA did not perform the required
       comprehensive SST inspection. A comprehensive SST inspection after the first
       fatality may have deterred and abated hazards at the same Central Industries
       worksite where a subsequent fatality occurred.

   •   Saw Pipes and its related company Jindal Enterprises had three fatalities that all
       occurred in 2007 at the same worksite. The first and second cases were properly
       designated as EEP while the third case was not. OSHA rated Saw Pipes’ safety
       and health plan as inadequate, but did not consider related worksite inspections.
       Jindal Enterprises was on the SST secondary list for 2006 and 2007, but no SST
       inspection was performed. A comprehensive SST inspection after the first fatality
       may have deterred and abated hazards at the same worksite where two
       subsequent fatalities occurred. OSHA indicated there were jurisdictional issues
       between two area offices – Saw Pipes and Jindal Enterprises were on the
       Houston North SST listings, but the companies are located in Houston South’s
       jurisdiction.

Alternate Worksite Inspections (Non-SST Employers)

For employers not on SST lists, the EEP directive (2003, section B.2 and B.3, and
2008, section XII.B.3 and XII.B.4) allows other related worksites inspections if there are
reasonable grounds to believe problems similar to those found in the EEP case may
exist at other worksites. Determining reasonable grounds includes an assessment of the
employer’s safety and health plan. For 80 percent of EEP cases with less than average
or unrated employer safety and health plans, there was no documentation that OSHA
determined if there were reasonable grounds to inspect other related worksites. Three
examples where alternate worksite inspections may have identified the violations
causing subsequent fatalities are presented below.

   •   Patterson-UTI Drilling had 12 fatalities under 11 EEP qualifying cases, which all
       shared similar violations. However, OSHA did not properly consider alternate
       worksite inspections for 9 of 11 cases. OSHA generally rated the employer’s

                                                         OSHA Enhanced Enforcement Program
                                            7                   Report No. 02-09-203-10-105
                                           U.S. Department of Labor – Office of Inspector General

       safety and health plan as less than average. For the fifth EEP qualifying case,
       OSHA conducted four alternate worksite inspections in the same area office that
       the EEP qualifying case occurred. OSHA did not consider alternate worksites
       outside that area, and Patterson-UTI Drilling had six subsequent fatalities that
       occurred in three other area offices.

   •   TK Stanley had three EEP qualifying cases where the second and third case
       shared similar violations. However, OSHA did not properly consider alternate
       worksite inspections. OSHA rated the employer’s safety and health plan as less
       than average for the second case and average for the third case, but did not
       provide documentation that it rated the plan on the first case.

   •   Haines Industries had two EEP qualifying cases, which occurred in different
       locations and shared similar violations. Employees at both worksites were struck
       by and killed by a “goat” truck. However, OSHA did not properly consider
       alternate worksite inspections. OSHA rated the employer’s safety and health plan
       as “nonexistent” on the first case and “inadequate” on the second case.

If used proactively, alternate worksite inspections could be effective in protecting
employees. For one sampled employer, OSHA considered related worksite inspections
before the original case qualified as EEP. In this case, Imperial Sugar received high
profile media attention for a dust explosion with 13 fatalities. Before OSHA issued
citations on the first case, it performed an alternate worksite inspection and posted that
worksite with an imminent danger notice, effectively shutting down plant operations. For
the related worksite inspection, the company was cited with 49 willful violations that
were similar in-kind to the violations in the initial fatality case.

Finding 3 – OSHA Did Not Conduct Proper Follow Up on 52 Percent of Sampled
EEP Qualifying Cases and 5 Subsequent Fatalities Occurred at the Same
Worksite

OSHA did not comply with requirements for EEP follow-up inspections to ensure
abatement and determine whether employers were committing similar violations.
Specifically, OSHA did not conduct proper follow up for 146 of 282 (52 percent)
sampled EEP qualifying inspections, or provide a compelling reason to not perform the
follow-up inspections. Of the sampled employers with multiple EEP qualifying and/or
fatality cases, 54 did not have proper EEP follow up, and 5 of the 54 employers had
subsequent fatalities at the same worksite. EEP requirements (section A for 2003 and
section XII.A for 2008) state that a follow-up inspection must be conducted to assess
not only whether the cited violation(s) were abated but also whether the employer was
committing similar violations. However, this EEP action was not done for one or more of
the following reasons: follow ups were low priority assignments; the EEP case was
designated too late so follow up could not be conducted; lack of tracking contested
cases so that follow up could be done after settlement; and misunderstanding EEP
requirements.



                                                         OSHA Enhanced Enforcement Program
                                            8                   Report No. 02-09-203-10-105
                                         U.S. Department of Labor – Office of Inspector General

To illustrate, Saw Pipes had two EEP qualifying fatality cases; the first was properly
designated while the latter was not. Both cases occurred at the same worksite with
similar violations of lockout/tagout standards, with the second case occurring three
months after the first case qualified as EEP. OSHA did not perform follow up on either
case and did not provide a compelling reason to not perform follow up. Manual records
indicated abatement and the cases were approved for closure. However, EEP directives
state “… a follow-up inspection must be conducted even if verification of abatement of
the cited violations has been received.”

Finding 4 – OSHA Generally Did Not Utilize Enhanced Settlement Provisions
Effectively for Sampled EEP Qualifying Cases and 45 Employers had 32
Subsequent Fatalities

OSHA generally did not utilize enhanced settlement provisions to maximize the
deterrent value of EEP actions and ensure future compliance with OSH Act. Settlement
agreement can occur through informal negotiations directly with OSHA, or as the result
of formal negotiations during contest and case review/adjudication. Both the 2003
(section D) and 2008 (section XII.D) criteria state:

      Most settlement agreements require the employer to abate all violations
      and pay a penalty. In some settlements, however, particularly those in
      egregious cases and other significant enforcement actions, OSHA has
      insisted that employers take steps to address systemic compliance
      problems or to provide OSHA with information that will enable it to take
      follow-up action.

However, we found enhanced settlement provisions were not included in 153 of 188
(81 percent) EEP qualifying cases with settlement agreements. Under EEP
requirements, enhanced provisions were to be used for all settlements with an EEP
employer. Examples of enhanced settlement provisions included hiring a safety and
health consultant, applying the agreement company-wide, and requiring employers to
list other job worksites. However, OSHA management did not incorporate these
provisions in its informal settlement template, which could have encouraged the
consistent use of the provisions in final agreements.

Of the sampled employers with multiple EEP qualifying and/or fatality cases,
60 employers had a total of 108 settlement agreements, and enhanced provisions were
not included in 89 of those agreements. For 45 of the 60 employers, none of their
settlement agreements contained enhanced provisions, and the employers had
32 fatalities subsequent to the settlement agreement dates. For example, Globe
Metallurgical had two EEP qualifying fatality cases in different worksites that shared
similar violations. The use of enhanced provisions such as a safety consultant or
company-wide training may have provided the necessary deterrent and abatement for
the employer to address violations resulting in the subsequent fatality.




                                                       OSHA Enhanced Enforcement Program
                                           9                  Report No. 02-09-203-10-105
                                                   U.S. Department of Labor – Office of Inspector General

Seven employers had settlement agreements with enhanced provisions, but the
provisions generally were not effectively utilized. The provisions were not of sufficient
duration, or were written as worksite specific and subsequent fatalities occurred at
alternate worksites. For example, Patterson-UTI had 11 EEP qualifying fatality cases
with similar violations and settlement agreements, but only 2 used enhanced settlement
provisions. The provisions used did not have company-wide implications. One was site-
specific and the other was limited to Oklahoma drilling worksites. However, Patterson-
UTI had drilling operations in two other states which incurred six subsequent fatalities.

Finding 5 – OSHA Has No Specific Criteria for Issuing National Office EEP-Alert
Memorandum on Employers with Worksites Across Regions and/or States

EEP-Alert Memoranda were issued when the National Office deemed it necessary to
notify Regional Administrators and State Designees of the activity of a particular
employer with many worksites across regions and/or states. However, OSHA has no
specific criteria on when to issue an EEP-Alert Memorandum and, nationally, has only
issued memoranda on nine employers. Our sample contained 22 employers where
multiple EEP qualifying and/or fatality cases (totaling 87 fatalities) occurred in more than
one region. EEP-Alert Memoranda were issued on only 5 of the employers and only
after the majority of the fatalities had occurred.

                                             Fatalities in   Fatalities Prior
                Employer Name               Sampled Cases     to Issuance          Date Issued
         BP Products of North America            18                 17          July 11, 2005
         Patterson-UTI Energy, Inc.              12                 11          August 9, 2006
         Davis H. Elliot Company, Inc.             2                 2          August 24, 2006
         Par Electrical Contractors, Inc.         2                  2          August 30, 2007
         Fru-Con Construction Corp                5                  5          February 29, 2008


According to OSHA officials, EEP-Alert Memoranda were issued on “gut reaction”
based on information provided to the National Office. However, that information was
incomplete because EEP cases were not properly designated in IMIS and EEP log.
(See Finding 1.)

Objective 2 – Does OSHA’s January 2008 Revised EEP Directive Have an Adverse
Impact on the EEP and Its Ability to Protect the American Worker?

With the 2008 revised EEP directive, OSHA still did not focus EEP enforcement actions
on qualifying employers with company-wide safety and health issues to protect workers
from subsequent injuries or fatalities. Over the last five years, the purpose of EEP
remained the same, to target employers who are indifferent to their OSH Act
obligations. However, the revised directive incorporated a component of qualifying
history (i.e., prior fatality and similar in-kind violations) which effectively reduced the
number of EEP qualifying cases; delayed designation; and increased the risk that
employers with multiple EEP qualifying and/or fatality cases may not be properly
designated due to the lack of quality history data. Furthermore, OSHA continued to not
properly designate and conduct EEP cases. As a result, fewer employers may be


                                                                   OSHA Enhanced Enforcement Program
                                                    10                    Report No. 02-09-203-10-105
                                                  U.S. Department of Labor – Office of Inspector General

subjected to EEP enhanced enforcement actions and may incur more fatalities before
designation occurs.

Finding 6 – Less EEP Qualifying Cases Means Fewer Employers Subject to EEP
Activities and Greater Risk for Subsequent Fatalities

Using the 2008 criteria, the number of EEP qualifying cases was reduced significantly.
In 2008, OSHA designated 7 percent of all fatality cases for enhanced enforcement,
whereas OSHA designated an average of 50 percent between 2003 and 2007. Analysis
of 2008 fatalities revealed 260 cases would not have been designated under the
2008 criteria, but would have qualified under the original EEP criteria. Because the
fatalities occurred in 2008, 260 employers would not be subject to EEP activities and
their employees may be at risk for injury or death before company-wide safety and
health issues are addressed through OSHA enforcement.

                                 EEP Qualifying Fatality Cases
                60%

                50%

                40%

                30%

                20%

                10%

                 0%
                          2004         2005            2006            2007         2008

                      2008 Criteria   2003 Criteria        2003 Criteria Applied to 2008 Cases



Finding 7– Issues in Determining Employer History Delayed Designation and
Increased Risk That Employers May Not Be Properly Designated

Under section XI, Criteria for an Enhanced Enforcement Case, the revised directive
incorporated a key component of qualifying history of violations with OSHA (including
history with the State Plans). History determination is a manual search process, which
can be affected by final order status of prior inspections, differences in standards cited
for state cases, and lack of quality data for history searches due to employer-related
companies and name variations. Issues in determining employer history delayed
designation and increased the risk that employers with multiple EEP qualifying and/or
fatality cases may not be properly designated.




                                                                      OSHA Enhanced Enforcement Program
                                                      11                     Report No. 02-09-203-10-105
                                           U.S. Department of Labor – Office of Inspector General

Final Order Status of Prior Inspections

History searches were complicated by the status of prior cases. Similar in-kind
violations cannot be determined until there is a final order of settlement, which takes on
average 6 months from the contest date. If violations are deleted, vacated or changed to
other than serious, they are not relevant for determining similar in-kind history under
EEP 2008 criteria.

Differences in Standards Cited For State Cases

Another challenge of history searches is determining similar in-kind violations when
using State inspection data. There were 26 states and territories which operate their
own safety and health programs under an OSHA approved state plan. Although these
state-plan states enter violations into the IMIS, the states’ coding may be different from
OSHA’s Federal standards. OSHA does not have a crosswalk between state and
Federal codes to assist in determining similar in-kind history. Of the 26 state-plan
states, 5 states use different coding for most, if not all, of their safety and health
standards: California, Washington, Michigan, Hawaii, and Oregon. Another 17 states
have a few unique codes because Federal equivalent codes do not exist. Four states
use coding identical to Federal OSHA.

Lack of Quality Data

OSHA officials indicated that history searches are subject to errors due to the lack of
quality information on the employer in IMIS. Employers could have several different
names in IMIS due to spelling errors; abbreviations; punctuation; name variations; and
different divisions, operating units or physical locale. History searches may also omit
events of related companies such as parent and subsidiary, because the names are not
linked in IMIS. OSHA officials stated that they plan to address naming issues in the new
OSHA Information System, which is currently under development with a roll-out date in
the fall of 2010.

Examples of spelling errors, name variations, and related companies are presented
below.

   •   Millennium Forming had two fatality cases and the name was misspelled as
       “Millenium Forming” on the second case. For the second case, the company
       erroneously received a good history discount on the penalty because OSHA did
       not associate that case with the prior case due to the spelling error.

   •   Patterson-UTI had several name variations in the 11 sampled EEP qualifying
       cases. For example, a history search on the employer since October 1, 2003,
       would return a list of 129 cases using the name “Patterson-UTI,” but would only
       list 2 cases using the name variation “Patterson-UTI Energy.”




                                                         OSHA Enhanced Enforcement Program
                                            12                  Report No. 02-09-203-10-105
                                           U.S. Department of Labor – Office of Inspector General

   •   Companies with common ownership such as Saw Pipes and Jindal Enterprises
       are not linked in IMIS so that a history search on one company would include
       cases for the related company. Under EEP, OSHA’s Office of Statistical Analysis
       (OSA) could – on request – provide other related worksites of the employer.
       However, OSA did not associate Saw Pipes with Jindal Enterprises when
       compiling the SST lists. Jindal Enterprises was on the SST lists from 2003
       through 2007; and in 2005, Saw Pipes was on the primary list while Jindal
       Enterprises was on the secondary list. The Houston South Area Director was
       aware of the relationship between the companies as they were in his local area,
       but he was not aware the companies were on the SST lists and did not inform
       OSA the companies were related.

Finding 8 – OSHA Continued to Not Properly Designate and Conduct EEP Cases

OSHA continued having issues with designating and conducting EEP cases under the
2008 criteria. Out of 708 fatality cases, OSHA designated 50 fatality cases as EEP, but
did not designate other cases that met the criteria and improperly designated cases
which did not meet the criteria. See Exhibit 2 for details.

   •   Another 32 fatality cases met the criteria for EEP, but were not properly
       designated. For example, TK Stanley had a serious violation related to the fatality
       and three prior fatality cases in its qualifying history. Also, Corrosion Control
       Corporation had three repeat violations and similar in-kind history in its qualifying
       history.

   •   Of the 50 designated EEP fatality cases, 16 did not meet the 2008 criteria based
       on IMIS data. Specifically:

          o 12 cases had serious violations that related to the fatality, but did not have
            qualifying similar in-kind history.

          o 3 cases did not have violations related to the fatality, and the violations
            that were cited did not have any qualifying similar in-kind history.

          o 1 case did not have any cited violations on the EEP-designated case.

Furthermore, OSHA did not comply with 2008 requirements in conducting EEP cases.
Our sampling included 11 EEP cases from 2008, of which 7 had no documentation that
OSHA considered related worksite inspections; 4 did not have proper follow up; and
3 with settlement agreements did not include enhanced provisions.

Finding 9 – Criteria Gaps May Mean Delayed EEP Designation and Additional
Fatalities

There are gaps in the 2008 criteria which may mean delays and additional fatalities
before an employer is designated as an EEP case. The revised directive has six criteria

                                                         OSHA Enhanced Enforcement Program
                                            13                  Report No. 02-09-203-10-105
                                                  U.S. Department of Labor – Office of Inspector General

for becoming an EEP case, of which three require prior history of another fatality or
similar in-kind violations within three years to qualify for the program. However, the
criteria leave gaps where employers would not qualify for EEP without an additional
fatality or non-fatality case. Two gaps were when (1) the employer’s history included
fatality and non-fatality cases; and (2) the EEP qualifying case occurred in a state that
did not adopt an EEP plan.

Employer’s History Included Fatality and Non-Fatality Cases

One gap occurred when the employer’s history included both fatality and non-fatality
cases. The non-fatality criterion does not consider prior fatalities as relevant history for
EEP designation, unless the fatality cases have similar in-kind violations. This gap also
applies in the inverse as the fatality criteria do not consider prior non-fatality cases
unless the cases have similar in-kind violations. The employer would need an additional
qualifying event before designation as EEP.

The 2008 criteria, section XI.A Fatality Criterion and XI.B, Non-fatality Criterion, require
similar in-kind history or another fatality, as stated below.

    •   A fatality inspection with one or more serious violations related to the death, and
        similar in-kind history of serious, willful, or repeat violations within three years.

    •   A fatality inspection with one or more serious violations related to the death and
        another fatality within three years.

    •   An inspection with three or more serious willful or repeat violations; and the
        similar in-kind history of serious, willful, or repeat violation within three years.

Using a 2005 case as an example, Homrich Incorporated had a non-fatality case that
had three serious, willful violations cited. Homrich Incorporated had prior fatalities, but
none of those cases had similar violations to the non-fatality case. Using the 2008 EEP
criteria, the prior fatalities would not have been considered as relevant history for EEP
designation. As such, Homrich Incorporated incurred an additional fatality, and only then
would qualify for EEP under the 2008 criteria.

EEP Qualifying Case Occurred in a State That Did Not Adopt An EEP Plan

Another gap occurs when the employer’s history includes Federal and state OSHA
cases. When the EEP qualifying event occurs at a state that has not adopted EEP, 6
there has to be an additional fatality or serious case before EEP designation. The
criterion is silent on how OSHA will address EEP qualifying employers when the case
occurs in states that have not adopted EEP.



6
 Only 6 of 26 states and territories operating under a state plan intended to adopt an EEP-type program.
Four states provided implementation dates in 2008, while two states had no implementation date.

                                                                 OSHA Enhanced Enforcement Program
                                                   14                   Report No. 02-09-203-10-105
                                            U.S. Department of Labor – Office of Inspector General

To illustrate, Arcelor Mittal had three fatalities cases in the first four months of 2008, the
second of which occurred in a state-plan state. The first fatality did not qualify for EEP.
The second qualified based on the first, but the fatality occurred in a state which had not
adopted EEP. Therefore, the case was not designated as EEP and no enhanced
enforcement was taken. A third fatality occurred in a Federal OSHA state and qualified
for EEP based on the first two cases.

CONCLUSION

OSHA management has not placed the appropriate management emphasis and
resources on this program to ensure indifferent employers were properly designated for
this program and subject to EEP actions. It is essential that OSHA target its limited
resources to inspect workplaces with the highest risk of hazardous conditions that have
greater potential to cause injuries and fatalities. By analyzing inspection information,
OSHA can identify worksites with known hazardous conditions to target under EEP. By
effectively utilizing EEP activities, OSHA could reduce the risk of future catastrophes
including injuries, illnesses, and fatalities.

Moreover, OSHA designated 29 EEP cases, but did not take any of the appropriate
enhanced enforcement actions. Sixteen employers subsequently had 20 fatalities, of
which 14 fatalities were in cases that shared similar violations. This lack of any EEP
action is a clear indication that this vital program to address indifferent employers lacked
sufficient management emphasis to achieve its potential to safeguard American
workers.

Recommendations

We recommend the Assistant Secretary for Occupational Safety and Health:

   1. Form an EEP Task Force to make recommendations to improve program
      efficiency and effectiveness in the following areas:

          a. Targeting indifferent employers most likely to have unabated hazards
             and/or company-wide safety and health issues at multiple worksites.

          b. Ensuring appropriate actions (i.e., follow-up and related worksite
             inspections) are taken on indifferent employers and related companies.

          c. Centralizing data analysis to identify employers with multiple EEP
             qualifying and/or fatality cases that occur across Regions.

          d. Identifying and sharing Regional and Area Offices’ “best practices” to
             improve compliance with EEP requirements.




                                                          OSHA Enhanced Enforcement Program
                                              15                 Report No. 02-09-203-10-105
                                          U.S. Department of Labor – Office of Inspector General

   2. Revise EEP directive to address issues with prior qualifying history and
      designation, and to provide specific criteria when National Office EEP-Alert
      Memoranda are to be issued.

   3. Provide formal training on EEP requirements including designation, consideration
      of related worksite inspections, enhanced enforcement follow up, and enhanced
      settlement provisions to ensure consistent application of EEP requirements.

   4. Incorporate enhanced settlement provisions in OSHA’s informal settlement
      template.

   5. Establish controls for periodic reconciliation of the EEP log to OSHA’s data
      system (currently IMIS).

   6. Develop and distribute a crosswalk to Federal OSHA citations for state standards
      that have a different coding than Federal OSHA standards.




Elliot P. Lewis




                                                        OSHA Enhanced Enforcement Program
                                           16                  Report No. 02-09-203-10-105
           U.S. Department of Labor – Office of Inspector General




Exhibits




                         OSHA Enhanced Enforcement Program
            17                  Report No. 02-09-203-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                           OSHA Enhanced Enforcement Program
              18                  Report No. 02-09-203-10-105
                                                                 U.S. Department of Labor – Office of Inspector General

                                                                                                                            Exhibit 1
                                      Sampled Federal Inspections
                         For the Period October 1, 2003, through March 31, 2008
                                                                       Subsequent        Finding 1  Finding 2   Finding 3   Finding 4
                                                           Case         Fatalities          EEP      Related                Enhanced
                                            Inspection   Qualified    Same Other        Designated Worksites     Proper     Settlement
 Seq.           Establishment Name            Number      as EEP       Site    Sites     Properly  Considered   Follow Up   Provisions
    1   AAA Roofing Company                 310407150       No            ----   ----       N/A        N/A         N/A          N/A
    2   ABC Professional Tree Services      310075387      Yes            ----   ----      Yes        No          Yes          No
    3   ABC Professional Tree Services      311078679      Yes            ----    1        No         No          No           No
    4   Acme Energy Services, Inc.          307005751      Yes            ----   ----      No         No          N/A          N/A
    5   Acme Energy Services, Inc.          307006999      Yes            ----   ----      No         No          N/A          N/A
    6   Acme Energy Services, Inc.          311130579      Yes            ----    1        No         No          N/A          N/A
    7   Advanced Organics, Inc.             307231068      Yes            ----   ----      Yes        No          No           Yes
    8   Alexander Lumber Co.                308568062       No            ----   ----      N/A        N/A         N/A          N/A
    9   Allen Co. Recyclers Inc.            307231845      Yes            ----   ----      Yes        No          Yes          Yes
   10   Alliance Pro Electric               308646587      Yes            ----   ----      No         No          Yes          No
   11   A-Mac Pipe Company                  306644691      Yes            ----   ----      No         No          No           N/A
   12   Andres Narvaez Masonry              309539922      Yes            ----   ----      No         No          No           No
   13   Apac,Southeast, Inc., Alabama       307832691      Yes            ----   ----      Yes        Yes         No           No
   14   Apac-Southeast, Inc.- First Coast   308429752      Yes            ----    1        No         Yes         No           No
   15   Aqua Power Electric                 307491571      Yes            ----   ----      No         No          No           N/A
   16   Arborcare Inc.                      307302331      Yes            ----   ----      Yes        No          Yes          N/A
   17   Ardis Roofing LLC                   311159735      Yes            ----   ----      No         No          No           No
   18   Asplundh Tree Expert Company        306753260      Yes            ----   ----      Yes        No          Yes          No
   19   Asplundh Tree Company, Region 68    310729645      Yes            ----    1        No         No          No           No
   20   Asplundh Tree Expert Co.            311245088      Yes            ----    1        No         No          No           No
   21   Astec, Inc.                         309754406      Yes            ----   ----      No         No          No           N/A
   22   Auto Electronic America Corp.       311612048      Yes            ----   ----      No         No          No           No
   23   Beelman River Terminals, Inc        309284909      Yes            ----   ----      Yes        No          Yes          No
   24   Beelman Truck Company               309289262      Yes            ----    1        Yes        No          No           Yes
   25   BFI Waste Systems of N. A.          306069931      Yes            ----   ----      Yes        No          Yes          N/A
   26   Big Warrior Corporation             308770585      Yes            ----   ----      No         No          No           No
   27   Bosque Valley Construction          310223979      Yes            ----   ----      No         No          No           No
   28   Bowers Demo                         309836716      Yes            ----   ----      Yes        No          Yes          N/A
   29   Bp Products North America, Inc      306482266      Yes            ----   ----      Yes        No          Yes          No
   30   Bp Products North America, Inc      308314640      Yes            ----   ----      Yes        Yes         Yes          Yes
   31   Bp Products North America, Inc      310266085     Yes (1)         ----   ----      No         No          No           No
   32   Brocks Welding                      309179117      Yes            ----   ----      Yes        No          No           Yes
   33   Broughton Food Service, Inc.        112528740       No            ----   ----      N/A        N/A         N/A          N/A
   34   Browning Ferris Industries          307832972       No            ----   ----      N/A        N/A         N/A          N/A
   35   Browning Ferris Industries          310208863      Yes            ----   ----      No         Yes          No          No
   36   Brunner Manufacturing Co., Inc      310763529      Yes            ----   ----      No         No          Yes          N/A
   37   Capstar Drilling, L.P.              311130751      Yes            ----   ----      No         No          No           No
   38   Care Sheet Metal & Roofing, Inc     308406255      Yes            ----   ----      No         No          Yes          No
   39   Carson Line Service, Inc.           308775998      Yes            ----   ----      No         No          No           No
   40   Case Atlantic Company               308326644      Yes            ----   ----      No         Yes         Yes          N/A
   41   Casio, Inc.                         309771962      Yes            ----   ----      No         No          No           N/A
   42   Catalina Design, Inc.               310446521     Yes (1)         ----   ----      No         No          No           N/A
   43   Catalina Martinez                   123398232      Yes            ----   ----      No         No          Yes          No
   44   Centerpoint Energy Houston Texas    308586445       No            ----   ----      N/A        N/A         N/A          N/A
   45   Centerpoint Energy Inc.             311661094     Yes (1)         ----   ----      No         No          N/A          N/A
   46   Central Industries Inc.             308769025      Yes            ----   ----      No         No          No           No
   47   Central Industries, Inc.            308771617      Yes             1     ----      No         No          No           No
   48   Charley Puckett                     307142166      Yes            ----   ----      No         No          No           N/A
   49   Chicago Castings Company, LLC       309026979     N/A (2)         ----   ----      N/A        N/A         N/A          N/A

Notes for EEP Qualifying Cases:
    (1) – 2008 criteria was used to determine whether the sampled case qualified as EEP.
    (2) – Sampled case was EEP related follow-up inspection that was appropriately coded as EEP according to the
               criteria, but was not applicable (N/A) for the sample objectives.
                                                                                        OSHA Enhanced Enforcement Program
                                                                     19                        Report No. 02-09-203-10-105
                                                               U.S. Department of Labor – Office of Inspector General

                                                                    Subsequent        Finding 1  Finding 2   Finding 3   Finding 4
                                                         Case        Fatalities          EEP      Related                Enhanced
                                          Inspection   Qualified   Same Other        Designated Worksites     Proper     Settlement
 Seq.           Establishment Name          Number      as EEP      Site    Sites     Properly  Considered   Follow Up   Provisions
   50   Chisholm Backhoe Service & Co.    308469048      Yes           ----   ----      No         No           No          No
   51   Cleveland Granite & Marble        309846079     N/A (2)        ----   ----      N/A        N/A         N/A          N/A
   52   Colehour Elevator, Inc.           308149780      Yes           ----   ----      Yes        No          Yes          N/A
   53   Commercial Brick Corp             308065234      Yes           ----   ----      Yes        No          Yes          No
   54   Conair Corporation                308567619      Yes           ----   ----      No         No           No          N/A
   55   Conair Corporation                308570100       No            1     ----      N/A        N/A         N/A          N/A
   56   Continental Structural Plastic    309087377      Yes           ----   ----      Yes        No           No          No
   57   Continental Structural Plastic    309443174      Yes           ----   ----      Yes        No          N/A          N/A
   58   Corey Sedlar,Dba Corey Sedlar     306480625      Yes           ----   ----      No         No           No          No
   59   Dal-Tile Corporation              308058858      Yes           ----   ----      Yes        No          Yes          No
   60   Dal-Tile International            307490151      Yes           ----    1        No         No           No          No
   61   Daniel Tong & Associates, Inc.    306070400      Yes           ----   ----      No         No          Yes          N/A
   62   Darrell Goines Logging            307832931      Yes           ----   ----      Yes        No           No          N/A
   63   Davis H. Elliot Construction Co   307013607      Yes           ----   ----      Yes        Yes         N/A          N/A
   64   Davis H. Elliot Construction Co   309184422      Yes           ----   ----      Yes        No          N/A          N/A
   65   Deltic Timber Corporation         307893347      Yes           ----   ----      No         No           No          No
   66   Deltic Timber Corporation         311127906      Yes           ----    1        No         Yes          No          No
   67   Derouen Electrical Service, Inc   310244843      Yes           ----   ----      Yes        No           No          No
   68   Don Mccoy & Son Inc.              309155513      Yes           ----   ----      Yes        No           No          No
   69   Eastex Forest Products            306570169      Yes           ----   ----      No         No          Yes          No
   70   Eilers Steel Erection, Inc.       306068131      Yes           ----   ----      Yes        No          Yes          No
   71   Eilers Steel Inc                  311308399      Yes           ----    1        No         No           No          No
   72   Elite Gutter Services, Inc.       309772499      Yes           ----   ----      No         No           No          No
   73   Eller-Ito Stevedoring Company     308404664      Yes           ----   ----      No         No           No          No
   74   Eller-I.T.O Stevedoring Company   310215884      Yes           ----    1        No         No          N/A          N/A
   75   Empire Stevedoring (Houston) I    310261110      Yes           ----   ----      No         No          Yes          No
   76   Empire Stevedoring (Houston) I    310261789       No           ----   ----      N/A        N/A         N/A          N/A
   77   Entergy Arkansas, Inc.            309222164      Yes           ----   ----      No         No           No          N/A
   78   F & P Georgia Mfg., Inc.          307347674      Yes           ----   ----      Yes        No           No          No
   79   F & P Georgia Mfg., Inc.          309256659      Yes            1     ----      Yes        Yes         N/A          N/A
   80   Fairweather Roofing Inc.          307847814      Yes           ----   ----      Yes        No           No          Yes
   81   Formosa Plastics Corporation      305893679      Yes           ----   ----      No         Yes         Yes          Yes
   82   Freedom Pipeline Corp.            307150953       No           ----   ----      N/A        N/A         N/A          N/A
   83   Freedom Pipeline Corp.            309575009      Yes           ----   ----      Yes        Yes         Yes          No
   84   French'S Welding & Maintenance    305962326      Yes           ----   ----      Yes        No          Yes          No
   85   Fru-Con Construction Corp.        307231381      Yes           ----   ----      Yes        No          Yes          Yes
   86   Fru-Con Construction              307238774       No           ----   ----      N/A        N/A         N/A          N/A
   87   Fru-Con Construction Corp.        309446219      Yes           ---    ----      Yes        No          N/A          N/A
   88   G.D. Edgar Lumber Company, Inc    306568577      Yes           ----   ----      No         No          Yes          No
   89   Garcia Masonry                    306482548      Yes           ----   ----      No         No          N/A          N/A
   90   Gencor Industries, Inc.           309526937      Yes           ----   ----      Yes        No          Yes          Yes
   91   Georgia Pacific Corporation       307241067      Yes           ----   ----      Yes        No           No          No
   92   Georgia-Pacific Corp. - Cedar     307411389      Yes           ----    1        Yes        No          Yes          Yes
   93   Georgia-Pacific Corporation       310988134      Yes           ----    1        No         Yes         N/A          N/A
   94   Gilmore Brothers Inc.             305121899      Yes           ----   ----      Yes        No           No          Yes
   95   Globe Metallurgical Inc.          307554394      Yes           ----   ----      Yes        No           No          No
   96   Globe Metallurgical, Inc.         112531280      Yes           ----    1        Yes        No          Yes          No
   97   Goober Drilling Corp - Rig #20    309783884      Yes           ----   ----      Yes        No           No          No
   98   Grand Isle Shipyard, Inc.         307153635      Yes           ----   ----      Yes        No           No          No
   99   Grand Isle Shipyard, Inc.         311520431      Yes           ----    2        No         No           No          No
  100   Grey Wolf Drilling                307486985      Yes           ----   ----      No         No           No          No
  101   Grey Wolf Drilling Co.            310440649      Yes           ----    1        Yes        No           No          No
  102   Gulf Stream Marine, Inc.          310895644      Yes           ----   ----      No         Yes         N/A          N/A
  103   Gulf Stream Marine, Inc.          311719488     Yes (1)        ----   ----      No         Yes         N/A          N/A

Notes for EEP Qualifying Cases:
    (1) – 2008 criteria was used to determine whether the sampled case qualified as EEP.
    (2) – Sampled case was EEP related follow-up inspection that was appropriately coded as EEP according to the
               criteria, but was not applicable (N/A) for the sample objectives.
                                                                                     OSHA Enhanced Enforcement Program
                                                                  20                        Report No. 02-09-203-10-105
                                                                U.S. Department of Labor – Office of Inspector General

                                                                     Subsequent        Finding 1  Finding 2   Finding 3   Finding 4
                                                          Case        Fatalities          EEP      Related                Enhanced
                                           Inspection   Qualified   Same Other        Designated Worksites     Proper     Settlement
 Seq.           Establishment Name           Number      as EEP      Site    Sites     Properly  Considered   Follow Up   Provisions
  104   Gulfstream Aerospace Corporation   306795279      Yes           ----   ----       Yes        No          Yes         N/A
  105   Gulfstream Aerospace Corporation   307411116      Yes           ----    1        Yes        Yes         Yes          Yes
  106   Haines City Industries, Inc.       307846642      Yes           ----   ----      No         No           No          No
  107   Haines City Industries, Inc.       310050307      Yes           ----    1        Yes        No          Yes          No
  108   Henkels & Mccoy, Inc.              309349413      Yes           ----   ----      Yes        No           No          No
  120   Imperial Heating & Cooling Inc     307400853      Yes           ----   ----      Yes        No           No          No
  121   Imperial Sugar Company             310988712     Yes (1)        ----   ----      No         Yes         N/A          N/A
  122   Imperial Sugar Company             311522858     Yes (1)        ----   ----      No         Yes         N/A          N/A
  123   Ims Division, Tube City Ims        310166095      Yes           ----   ----      Yes        No           No          No
  124   Infrastructure Services, Inc.      308319755      Yes           ----   ----      No         Yes          No          No
  125   Infrastructure Services, Inc.      311472906      Yes           ----    1        No         No           No          No
  126   International Paper Courtland      307013409      Yes           ----   ----      Yes        Yes         Yes          No
  127   International Paper Company        307223040      Yes           ----   ----      No         Yes          No          N/A
  128   International Paper Courtland      307672766     N/A (2)        ----   ----      N/A        N/A         N/A          N/A
  129   International Paper Company        309603132      Yes           ----    1        Yes        No           No          N/A
  130   Interstate Grain Port Terminal     308530682      Yes           ----   ----      No         Yes          No          No
  131   Isaac'S Construction LLC           309081057      Yes           ----   ----      No         No          Yes          Yes
  132   J. D. Parker And Sons, Inc.        311129761      Yes           ----   ----      Yes        No          Yes          No
  133   J.A. Riggs Tractor Company         309946234      Yes           ----   ----      Yes        No          N/A          N/A
  134   J.A. Riggs Tractor Company         310355839      Yes           ----   ----      No         No          N/A          N/A
  135   J.P.R.S./New Way, Inc.             309357044      Yes           ----   ----      Yes        No          Yes          No
  136   J.V Industrial Companies, Inc      308322452      Yes           ----   ----      No         No          N/A          N/A
  137   Jeff Mercer LLC                    310250428      Yes           ----   ----      No         No           No          N/A
  138   Jj Finley Construction             306203639      Yes           ----   ----      No         No           No          No
  139   John Carlo, Inc.                   306750035      Yes           ----   ----      Yes        No          Yes          No
  140   John Carlo, Inc.                   311084495       No           ----   ----      N/A        N/A         N/A          N/A
  141   Jose Garcia Dba J.I. Framing       310445036     Yes (1)        ----   ----      No         No           No          N/A
  142   Jose Jimenez                       123398349      Yes           ----   ----      No         No          Yes          N/A
  143   Jozef Stoch                        311852446     Yes (1)        ----   ----      No         No          Yes          No
  144   JS Fabrications Inc.               309452738      Yes           ----   ----      No         No           No          No
  145   King Motor Company                 308402833      Yes           ----   ----      No         Yes          No          No
  146   Klosterman Baking Co.              308043850      Yes           ----   ----      Yes        Yes          No          Yes
  147   Knight Sign Industries, Inc.       307013581      Yes           ----   ----      Yes        No          Yes          No
  148   Kollmann Trucking                  309354256      Yes           ----   ----      Yes        No           No          No
  149   Koswire, Inc.                      311032353      Yes           ----   ----      No         Yes         Yes          N/A
  150   Kuehn Brothers Trucking            307062398      Yes           ----   ----      No         No           No          N/A
  151   Lake Michigan Contractors, Inc     307303362      Yes           ----   ----      No         No           No          No
  152   Lapham-Hickey Steel Corp           309836658      Yes           ----   ----      No         No          Yes          Yes
  153   Leeland Bakery Co LLC              310260880      Yes           ----   ----      No         No           No          No
  154   Leonel Rubio Masonry               306479874      Yes           ----   ----      Yes        Yes         Yes          Yes
  155   Lone Star Infrastructure           307953877      Yes           ----   ----      No         Yes          No          N/A
  156   Lone Star Infrastructure           309751212      Yes           ----    1        No         No           No          No
  157   Longianese                         307300327      Yes           ----   ----      No         No           No          N/A
  158   Lott Sheet Metal Contractors,      307352682      Yes           ----   ----      Yes        No           No          Yes
  159   Malcolm Powell Logging             307407221     N/A (2)        ----   ----      N/A        N/A         N/A          N/A
  160   Mansfield Plumbing Products LLC    307232181      Yes           ----   ----      Yes        No          Yes          No
  161   Mastec North America, Inc.         309429967      Yes           ----   ----      Yes        No          N/A          N/A
  162   Mastec North America Energy        310030564      Yes           ----    1        Yes        No          N/A          N/A
  163   Mcarthur Dairy, Inc.               309430932       No           ----   ----      N/A        N/A         N/A          N/A
  164   Mckenzie Tank Lines                305962938      Yes           ----   ----      Yes        No          Yes          Yes
  165   Mckenzie Tank Lines                310207162      Yes           ----    1        Yes        No           No          No
  171   Metropolitan Hustlers, Inc         308407097      Yes           ----   ----      No         No          Yes          No
  172   Middle South Construction Co       308776582      Yes           ----   ----      Yes        No          Yes          No
  173   Mill Creek                         307149047      Yes           ----   ----      No         No           No          No
Notes for EEP Qualifying Cases:
    (1) – 2008 criteria was used to determine whether the sampled case qualified as EEP.
    (2) – Sampled case was EEP related follow-up inspection that was appropriately coded as EEP according to the
               criteria, but was not applicable (N/A) for the sample objectives.
                                                                                      OSHA Enhanced Enforcement Program
                                                                   21                        Report No. 02-09-203-10-105
                                                                 U.S. Department of Labor – Office of Inspector General

                                                                      Subsequent        Finding 1  Finding 2   Finding 3   Finding 4
                                                           Case        Fatalities          EEP      Related                Enhanced
                                            Inspection   Qualified   Same Other        Designated Worksites     Proper     Settlement
 Seq.            Establishment Name           Number      as EEP      Site    Sites     Properly  Considered   Follow Up   Provisions
  174   Millennium Forming, Inc.            308436625      Yes           ----   ----       Yes        Yes         No          No
  175   Millenium Forming, Inc.             310953328      Yes           ----    1        No         No           No          No
  176   Milwaukee Valve Company, Inc.       310763610      Yes           ----   ----      No         No          Yes          No
  177   Modern Printing Colors, Inc.        307367177      Yes           ----   ----      Yes        No          Yes          No
  178   Moeves Plumbing Inc.                307961987      Yes           ----   ----      Yes        Yes         Yes          No
  179   Multiquip, Inc                      307041277      Yes           ----   ----      No         No           No          No
  180   Mustang Rentals Services            306476615      Yes           ----   ----      Yes        No          Yes          N/A
  181   Nabors Drilling Usa, Lp             309141190      Yes           ----   ----      No         No          N/A          N/A
  182   Nabors Drilling Usa, Inc.           311899249     Yes (1)        ----    1        No         No          N/A          N/A
  183   Newpage Corporation                 310019617      Yes           ----   ----      No         No           No          No
  184   North American Fly, Ltd.            307043240      Yes           ----   ----      No         No           No          No
  185   Northwest Pipe Company              306203548       No           ----   ----      N/A        N/A         N/A          N/A
  186   Northwest Pipe Company              306572694       No           ----   ----      N/A        N/A         N/A          N/A
  187   Northwest Pipe Company              306572728       No           ----   ----      N/A        N/A         N/A          N/A
  188   Northwest Pipe Company              308590074      Yes           ----   ----      Yes        No           No          No
  189   Northwest Pipe Company              308656677       No           ----   ----      N/A        N/A         N/A          N/A
  190   Northwest Steel Corporation         311353874       No           ----   ----      N/A        N/A         N/A          N/A
  191   Nunn Constructors                   310895610      Yes           ----   ----      No         No           No          N/A
  192   Ohio Valley Electrical Service      308425339      Yes           ----   ----      Yes        No           No          No
  193   Oklahoma Roof Truss Co., Inc.       308067115      Yes           ----   ----      Yes        Yes         Yes          No
  194   Orlowski Construction, Inc.         307107144      Yes           ----   ----      Yes        No          N/A          N/A
  195   Par Electrical Contractors, Inc.    305121618      Yes           ----   ----      Yes        No           No          No
  196   Par Electrical Contractors, Inc.    309080661      Yes           ----    1        No         No          N/A          N/A
  197   Patterson-Uti Drilling Company      307002824      Yes           ----   ----      Yes        No           No          No
  198   Patterson-Uti Drilling Company      307003038      Yes           ----   ----      No         No          N/A          N/A
  199   Patterson-Uti Drilling Company      307003541      Yes           ----   ----      Yes        No           No          Yes
  200   Patterson Drilling - Uti Rig # 99   306207366      Yes           ----    1        Yes        Yes         Yes          No
  201   Patterson-Uti Drilling Company      306646639      Yes           ----    1        Yes        Yes          No          Yes
  202   Patterson-Uti Energy, Inc.          308646165      Yes           ----    1        No         No           No          No
  203   Patterson-Uti Drilling Co., Rig     309671857      Yes           ----    1        Yes        No          Yes          No
  204   Patterson-Uti Drilling Co Lp        310035555      Yes           ----    1        No         No          N/A          N/A
  205   Patterson-Uti Drilling Company      309786689      Yes           ----    1        Yes        No           No          No
  206   Patterson-Uti Drilling Company      310017249      Yes           ----    2        No         No          N/A          N/A
  207   Patterson-Uti Drilling Co Lp        310138656       No           ----   ----      N/A        N/A         N/A          N/A
  208   Patterson-Uti Drilling Co Lp        310138813       No           ----   ----      N/A        N/A         N/A          N/A
  209   Patterson-Uti Drilling Co Lp        310223128       No           ----   ----      N/A        N/A         N/A          N/A
  210   Patterson-Uti Drilling Co Lp        310223342       No           ----   ----      N/A        N/A         N/A          N/A
  211   Patterson-Uti Drilling Co Lp        310794482       No           ----   ----      N/A        N/A         N/A          N/A
  212   Patterson-Uti Drilling Company      310690417      Yes           ----    1        No         No           No          No
  213   Pepsi-Cola General Bottlers, Inc.   310571005      Yes           ----   ----      Yes        No          Yes          No
  214   Picerne Development Corporation     309780971      Yes           ----   ----      Yes        No          Yes          Yes
  215   Pike Electric, Inc.                 309139798      Yes           ----   ----      Yes        Yes          No          No
  216   Pike Electric, Inc.                 309252898      Yes           ----   ----      Yes        No          N/A          N/A
  217   Pike Electric Inc.                  310474473      Yes           ----    1        Yes        No           No          No
  218   Pike Electric Inc.                  310479985      Yes           ----    1        Yes        No           No          No
  219   Pilkington North America Inc.       309448280      Yes           ----   ----      No         No          Yes          No
  220   Premium Well Drilling Inc           308530690      Yes           ----   ----      No         No           No          No
  221   Premium Well Drilling               310446828     Yes (1)        ----    1        No         No           No          No
  222   Primary Structures, Inc.            307519710      Yes           ----   ----      Yes        Yes         Yes          No
  223   Primary Structures, Inc.            310511225      Yes           ----   ----      No         Yes          No          Yes
  224   Pumpco                              309674224      Yes           ----   ----      Yes        No          Yes          No
  225   Pumpco, Inc.                        310441621      Yes           ----    1        No         No          N/A          N/A
  226   Quad Graphics, Inc.                 307054080      Yes           ----   ----      Yes        Yes         Yes          No
Notes for EEP Qualifying Cases:
    (1) – 2008 criteria was used to determine whether the sampled case qualified as EEP.
    (2) – Sampled case was EEP related follow-up inspection that was appropriately coded as EEP according to the
               criteria, but was not applicable (N/A) for the sample objectives.
                                                                                       OSHA Enhanced Enforcement Program
                                                                    22                        Report No. 02-09-203-10-105
                                                                U.S. Department of Labor – Office of Inspector General

                                                                     Subsequent        Finding 1  Finding 2   Finding 3   Finding 4
                                                          Case        Fatalities          EEP      Related                Enhanced
                                           Inspection   Qualified   Same Other        Designated Worksites     Proper     Settlement
 Seq.           Establishment Name           Number      as EEP      Site    Sites     Properly  Considered   Follow Up   Provisions
  227   R & R Construction Services        307297507      Yes           ----   ----       Yes        No          Yes         N/A
  228   R&R Metalcraft, Inc.               309771269      Yes           ----   ----      Yes        No           No          No
  229   R. Popernik Company, Inc.          310177126      Yes           ----   ----      No         No           No          N/A
  230   Republic Engineered Products       309445112      Yes           ----   ----      No         No          N/A          N/A
  231   Republic Waste Service Of Texas    306569666       No           ----   ----      N/A        N/A         N/A          N/A
  232   Republic Waste Services Of Texas   310633474      Yes           ----   ----      No         No           No          No
  233   Rexnord Industries LLC             309357812      Yes           ----   ----      Yes        No           No          Yes
  234   Rexnord Industries, LLC            309357648      Yes           ----   ----      Yes        Yes         Yes          No
  235   Rolando Magana                     310208798      Yes           ----   ----      Yes        No           No          N/A
  236   Rotonics Manufacturing Inc.        307999227      Yes           ----   ----      No         Yes          No          No
  237   Rotonics Manufacturing Inc.        311730618      Yes            1     ----      No         Yes          No          No
  238   San Antonio Lath & Plaster, Inc.   311311401     No (1)         ----   ----      N/A        N/A         N/A          N/A
  239   Sanderson Farms Inc, Processing    307951350      Yes           ----   ----      No         No           No          Yes
  240   Sanderson Farms Inc                308775626      Yes           ----    1        Yes        No          N/A          N/A
  241   Savage Grain Co., Inc.             306652520      Yes           ----   ----      No         No          Yes          N/A
  242   Saw Pipes Usa Inc                  310260310      Yes           ----   ----      Yes        No           No          N/A
  243   Saw Pipes Usa Inc                  310264304      Yes            1     ----      No         No           No          N/A
  244   Schindler Elevator Corporation     309254282       No           ----   ----      N/A        N/A         N/A          N/A
  245   Schindler Elevator Corporation     308319524      Yes           ----   ----      No         No          N/A          N/A
  246   Schindler Elevator Corporation     310214358      Yes           ----    1        Yes        Yes         N/A          N/A
  247   Ser Construction Partners, Ltd     311491591      Yes           ----   ----      No         Yes          No          N/A
  248   Shamrock Drilling Company, Inc     307598268      Yes           ----   ----      Yes        No           No          No
  249   Shamrock Drilling Inc.             311411524       No           ----    1        N/A        N/A         N/A          N/A
  250   Site Concrete, Inc.                307487793      Yes           ----   ----      No         No          N/A          N/A
  251   Snider Industries, LLP             309545382      Yes           ----   ----      No         No           No          No
  252   Solar Shield Urethane Roof Syst.   309020782      Yes           ----   ----      Yes        No          Yes          N/A
  253   Southern Pan Services Company      310954581      Yes           ----   ----      Yes        No           No          No
  254   Southern Pan Services Company      310034319      Yes           ----    1        No         No          N/A          N/A
  255   St. Marys Foundry Inc.             309442572      Yes           ----   ----      Yes        No           No          No
  256   Standard Concrete Products, Inc.   307414797      Yes           ----   ----      Yes        Yes          No          Yes
  257   Standard Concrete Products         311031298      Yes           ----   ----      Yes        No           No          No
  258   Sugar Farms Co-Op                  310216171      Yes           ----   ----      No         No           No          No
  259   Sugarcane Harvesting Inc.          311087944      Yes           ----   ----      No         No          Yes          N/A
  260   Sunesis Construction Co.           309263119      Yes           ----   ----      Yes        No           No          No
  261   Sunesis Construction Co.           309266864       No           ----   ----      N/A        N/A         N/A          N/A
  262   Sunesis Construction Co.           309414100      Yes           ----   ----      Yes        No          Yes          Yes
  263   Superior Rigging & Erecting Co.    310958046     Yes (1)        ----   ----      No         Yes         N/A          N/A
  264   Susan Lynn Furniture Restoration   307366401       No           ----   ----      N/A        N/A         N/A          N/A
  265   Suwanee Lumber Company             310027420      Yes           ----   ----      Yes        Yes         Yes          Yes
  266   Synergy Management Group           307004838      Yes           ----   ----      No         No           No          No
  267   T K Stanley, Inc.                  307489435      Yes           ----   ----      No         No          Yes          N/A
  268   T.K. Stanley, Inc.                 308768357      Yes           ----   ----      Yes        No          Yes          Yes
  269   T.K. Stanley, Inc.                 308651959      Yes           ----    1        Yes        Yes         Yes          No
  270   Tampa Enterprises Inc.             307063776      Yes           ----   ----      Yes        Yes          No          Yes
  271   Tarmac America Llc                 307302851      Yes           ----   ----      No         Yes         Yes          No
  272   Temple-Inland, Inc.                307352708      Yes           ----   ----      No         No          Yes          No
  273   Temple-Inland Trading Company      310248646      Yes           ----    1        No         Yes          No          No
  274   Temple-Inland, Inc.                311179279       No           ----   ----      N/A        N/A         N/A          N/A
  275   Tennessee Valley Authority         106962020      Yes           ----   ----      No         No           No          N/A
  276   Tennessee Valley Authority         306658436      Yes           ----    1        No         Yes          No          N/A
  277   Tetra Applied Technologies, LP     307004259      Yes           ----   ----      No         No           No          No
  278   Tetra Applied Technologies, LP     307708479      Yes           ----   ----      Yes        No          Yes          No
  279   Tetra Applied Technologies, LP     309524379     N/A (2)        ----   ----      N/A        N/A         N/A          N/A
  280   Texfire Fire Sprinklers LLC        307484816      Yes           ----   ----      No         No           No          No
Notes for EEP Qualifying Cases:
    (1) – 2008 criteria was used to determine whether the sampled case qualified as EEP.
    (2) – Sampled case was EEP related follow-up inspection that was appropriately coded as EEP according to the
               criteria, but was not applicable (N/A) for the sample objectives.
                                                                                      OSHA Enhanced Enforcement Program
                                                                   23                        Report No. 02-09-203-10-105
                                                                 U.S. Department of Labor – Office of Inspector General

                                                                      Subsequent        Finding 1  Finding 2   Finding 3   Finding 4
                                                           Case        Fatalities          EEP      Related                Enhanced
                                            Inspection   Qualified   Same Other        Designated Worksites     Proper     Settlement
 Seq.           Establishment Name            Number      as EEP      Site    Sites     Properly  Considered   Follow Up   Provisions
  281   The Ashland Rubber Mat Co.          309449221      Yes           ----   ----      No         No           N/A         N/A
  282   The Beaulieu Group, LLC             307352773      Yes           ----   ----      Yes        Yes          No          No
  283   The Griffin Wheel Company           121914428       No           ----   ----      N/A        N/A         N/A          N/A
  284   The Griffin Wheel Company           306539016      Yes           ----   ----      Yes        No          Yes          No
  285   Thornton Drilling Co.               308462571      Yes           ----   ----      No         No           No          No
  286   Tnt Logistics North America Inc.    305897118       No           ----   ----      N/A        N/A         N/A          N/A
  287   Tnt Logistics North America Inc.    309119683       No           ----   ----      N/A        N/A         N/A          N/A
  288   Tnt Logistics North America, Inc.   309434199      Yes           ----   ----      Yes        No           No          Yes
  289   Top Flight Steel                    307489286      Yes           ----   ----      No         No           No          No
  290   Top Flight Steel, Inc.              308646256      Yes           ----   ----      No         No          N/A          N/A
  291   Tri-City Demolition Services        307999458      Yes           ----   ----      No         No           No          N/A
  292   Tyson Foods, Inc.                   307100172      Yes           ----   ----      Yes        Yes         N/A          N/A
  293   Tyson Foods, Inc.                   308063387       No           ----   ---       N/A        N/A         N/A          N/A
  294   Tyson Foods, Inc.                   310355664      Yes           ----   ----      No         No          N/A          N/A
  295   Tyson Foods, Inc.                   310355813      Yes           ----    1        No         No           No          No
  296   Tyson Chick N Quick                 311363048      Yes           ----    1        No         No           No          No
  297   United Forming Inc                  311309165      Yes           ----   ----      No         No          N/A          N/A
  298   United Forming Inc                  311365092      Yes           ----   ----      No         No           No          No
  299   United States Pipe And Foundry      308058510      Yes           ----   ----      Yes        Yes         Yes          No
  300   United States Pipe And Foundry      309247898      Yes           ----   ----      Yes        No          Yes          No
  301   Utility & Environmental Servic      307491258      Yes           ----   ----      No         No          Yes          No
  302   Valley Cabinet Inc.                 122016389      Yes           ----   ----      Yes        No          Yes          N/A
  303   Victory Signs And Lighting, Inc.    309962330      Yes           ----   ----      Yes        No          Yes          No
  304   Vonroll America Corp.               307441790       No           ----   ----      N/A        N/A         N/A          N/A
  305   W.G. Yates & Sons Construction      303776181       No           ----   ----      N/A        N/A         N/A          N/A
  306   W.G. Yates & Sons Construction      303776249      Yes           ----   ----      Yes        No          Yes          No
  307   W.G. Yates & Sons Construction      303776736      Yes           ----   ----      Yes        Yes          No          No
  308   W.G. Yates & Sons Construction      307350553       No           ----   ----      N/A        N/A         N/A          N/A
  309   Walt Disney Entertainment, Inc.     307495846       No           ----   ----      N/A        N/A         N/A          N/A
  310   Walt Disney World Co.               311730675      Yes           ----   ----      No         No          N/A          N/A
  311   Wayne Farms, LLC                    306445495      Yes           ----   ----      Yes        No          Yes          No
  312   Wayne Farms, LLC                    307640094      Yes           ----   ----      Yes        No          N/A          N/A
  313   Wheeling Pittsburgh Steel Corp      307884023      Yes           ----   ----      Yes        No          N/A          N/A
  314   Wheeling Pittsburgh Steel Corp      309182095      Yes           ----   ----      Yes        No          Yes          No
  315   Wheeling Pittsburgh Steel Corp      112528757      Yes           ----   ----      Yes        No           No          Yes
  316   Wheeling Pittsburgh Steel Corp      309186369      Yes           ----    1        Yes        No           No          Yes
  317   Wheeling Pittsburgh Steel Corp      310479670      Yes           ----   ----      Yes        No           No          Yes
  318   Williams Brothers Construction      308315795      Yes           ----   ----      No         No           No          No
  319   Williams Brothers Construction      308591437      Yes           ----    1        No         Yes          No          No
  320   Winner Aviation                     310569991      Yes           ----   ----      No         No           No          No
  321   Wittwer Construction Company        306643974      Yes           ----   ----      No         Yes          No          No
  322   Wittwer Construction Company        306645433      Yes           ----    1        No         Yes          No          No
  323   Young Contractors, Inc.             307957324     N/A (2)        ----   ----      N/A        N/A         N/A          N/A
  324   Youngquist Brothers, Inc.           310208855      Yes           ----   ----      Yes        No           No          No
  325   Youngquist Brothers, Inc.           311087308      Yes           ----    1        No         No          Yes          N/A
        Count of EEP Qualifying Cases                      282                            149        226         146          153
        Total Subsequent Fatalities                                       5     53




Notes for EEP Qualifying Cases:
    (1) – 2008 criteria was used to determine whether the sampled case qualified as EEP.
    (2) – Sampled case was EEP related follow-up inspection that was appropriately coded as EEP according to the
               criteria, but was not applicable (N/A) for the sample objectives.
                                                                                       OSHA Enhanced Enforcement Program
                                                                    24                        Report No. 02-09-203-10-105
                                                     U.S. Department of Labor – Office of Inspector General

                                                                                                             Exhibit 2
                    2008 Fatality Cases With EEP Designation Issues

A. Fatality cases that were not designated as EEP, but had related serious violations
   and/or qualifying prior history based on IMIS data. Based on OSHA’s 2008 criteria,
   these cases should have been designated as EEP.

SEQ   INSPECTION         ESTABLISHMENT NAME                                 QUALIFYING FACTOR
 1    112984919    Arcelor Mittal                     Prior Fatalities – 311268650; 311263362; 311259402; and
                                                      310373246
 2    116022708    Corrosion Control Corporation      Non-Fatality criteria - 3 Repeats similar in-kind to 116204751
 3    309578417    Pioneer Drilling Rig #22           Prior Fatalities – 308307891 and 309494078
 4    309729762    Newport News Shipbuilding          Prior Fatality – 300199221
 5    310160429    The Sherwin Williams Company       Prior Fatality – 310778154
 6    310447032    Sam's Club                         Prior Fatalities – 309056026 and 310560941
 7    310721634    In and Out Plumbing                Willful related to fatality in current inspection
 8    310988712    Imperial Sugar Company             Willful related to fatality in current inspection
 9    310990205    Georgia-Pacific Corporation        Prior Fatality – 310988134
 10   311006225    Heller Construction Company        Willful related to fatality in current inspection
 11   311088033    Waste Management Inc of Florida    Prior Fatality – 309068864
 12   311325161    Kusler Masonry Inc.                Similar in-kind violation – 309471175
 13   311444988    U.S. Pipe & Foundry LLC.           Prior Fatality – 307342105
 14   311474456    Timken Co.                         Prior Fatality – 310970173
 15   311577456    United Team Mechanical, LLC        Prior Fatality – 309165967 (state-plan state)
 16   311677306    Whipstock National Gas Service     Prior Fatality – 308010628
 17   311678676    S.W. Jack Drilling Company         Prior Fatality – 307073395
 18   311731129    Brasfield & Gorrie, LLC            Prior Fatality – 310706783
 19   311755094    The Davey Tree Expert Company      Prior Fatalities – 308853811; 311377675; 310642046;
                                                      310331392; 308240175; and 119647154
 20   311787444    Murfin Drilling Company, Inc.      Similar in-kind violation – 307655340
 21   311803746    T. K. Stanley, Inc.                Prior Fatalities – 308651959; 308590801; and 308768357
 22   311903694    Harvest Meat Company, Inc          Willful violation related to fatality in current inspection
 23   311969307    Premium Well Drilling Inc, Rig     Prior Fatalities – 310446828 and 308530690
 24   312135320    Gruma Corp. dba Mission Foods      Prior Fatalities – 307183939 and 310055249
 25   312146871    Southern Lights Electrical Con     Prior Fatality – 312240559
 26   312174360    Cyclone Drilling, Inc.             Prior Fatalities – 309913580; 307818575; and 307811638
 27   312238629    Unit Drilling Co.                  Prior Fatalities – 311001341 and 309165587
 28   312283047    Master Boat Builders, Inc.         Similar in-kind violation – 311969570
 29   312376288    Becco Contractors, Inc.            Prior Fatality – 308066893
 30   312386220    Gorman-Phillips Construction       Prior Fatality – 307011411
 31   312403926    Jelly Belly Candy Co.              Prior Fatality - 301127064
 32   312545213    T&F Systems Inc.                   Prior Fatality – 310219589




                                                                       OSHA Enhanced Enforcement Program
                                                      25                      Report No. 02-09-203-10-105
                                                        U.S. Department of Labor – Office of Inspector General

B. Fatality cases that were designated as EEP, but were without related serious
   violations and/or qualifying prior history based on IMIS data. Based on OSHA’s 2008
   criteria, these cases should not have been designated as EEP.

 SEQ   INSPECTION          ESTABLISHMENT NAME                                 DISQUALIFYING FACTOR(S)
  1    312187446    Brox Industries                      No qualifying prior history
  2    311520753    Prime Coatings                       No qualifying prior history
  3    312216823    Weber Concrete and Construction      No qualifying prior history
  4    311832703    AK Steel Corporation                 No qualifying prior history
  5    311612840    D.W. White Construction              No qualifying prior history
  6    311090948    E & M Hi-Rise Railing & Glass        No qualifying prior history & Not coded as related to fatality
  7    310621396    Eagle Geophysical Onshore            No qualifying prior history
  8    122018435    Greenheck Fan Corporation            No qualifying prior history
  9    310840681    Kingsley Group                       No qualifying prior history & Not coded as related to fatality
 10    309841773    Luvata Appleton                      No qualifying prior history
 11    310937412    Northwest Missouri Biofuels          No qualifying prior history & Not coded as related to fatality
 12    311526693    Ogle Engineering And Construction    No qualifying prior history & Not coded as related to fatality
 13    312187347    Peabody Supply Company               No qualifying prior history
 14    311931968    Suburban Farmer Company              No qualifying prior history
 15    311088629    Sugar Cane Growers Cooperative       No citations in this inspection
 16    312147192    U.S. Xpress Enterprises              No qualifying prior history




                                                                           OSHA Enhanced Enforcement Program
                                                         26                       Report No. 02-09-203-10-105
             U.S. Department of Labor – Office of Inspector General




Appendices




                           OSHA Enhanced Enforcement Program
              27                  Report No. 02-09-203-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                           OSHA Enhanced Enforcement Program
              28                  Report No. 02-09-203-10-105
                                                 U.S. Department of Labor – Office of Inspector General

                                                                                        Appendix A
Background

Under the OSH Act of 1970, employers are responsible for providing a safe and healthy
workplace for their employees. OSHA’s mission is “… to promote the safety and health
of America's working men and women by setting and enforcing standards; providing
training, outreach and education; establishing partnerships; and encouraging continual
process improvement in workplace safety and health.”

EEP was first implemented in a September 30, 2003, memorandum to Regional
Administrators, and focused on employers who were indifferent to their obligations
under the OSH Act. These employers were identified based on cited violations from any
type of inspection where the violations were: serious and high gravity violations related
to fatalities; willful and/or repeat violations; or failure-to-abate citations where the
employer did not address previously cited hazards.

After four years of implementation, OSHA revised the program and issued OSHA
Enforcement and Complaint Directive (CPL) 02-00-145, Enhanced Enforcement
Program (EEP), effective on January 1, 2008. Under the revised program, the purpose
of EEP remained the same, but the targeting criteria incorporated a key component of
qualifying OSHA history, i.e., prior fatality and similar in-kind violations, which effectively
reduced the number of EEP qualifying cases.

EEP inspections represent a small percentage (1 percent) of total programmed
inspections, but the targeted employers pose the highest risk to employee safety.
Companies that fall under EEP are considered high risk offenders that place their
employees at risk. OSHA's role is to promote the safety and health of America's working
men and women by setting and enforcing standards; providing training, outreach and
education; establishing partnerships; and encouraging continual process improvement
in workplace safety and health. However, BLS continues to report significant levels of
work-related fatalities. 7


                                          Year      Fatalities
                                          2003        5,575
                                          2004        5,764
                                          2005        5,734
                                          2006        5,840
                                          2007        5,488



OSHA stated that less than 20 percent of BLS reported fatalities occurred in Federal
OSHA covered workplaces.


7
 U.S. Department of Labor, BLS, National Census of Fatal Occupational Injuries, August 20, 2008.
Reported fatalities for 2007 are preliminary figures.

                                                                 OSHA Enhanced Enforcement Program
                                                  29                    Report No. 02-09-203-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                           OSHA Enhanced Enforcement Program
              30                  Report No. 02-09-203-10-105
                                           U.S. Department of Labor – Office of Inspector General

                                                                                  Appendix B
Objectives, Scope, Methodology, and Criteria


Objectives

The objectives of the audit were to answer the following questions:

   1. Were establishments properly identified as EEP cases and were inspections
      conducted in accordance with OSHA’s EEP Directives?

   2. Does OSHA’s January 2008 revised EEP Directive have an adverse impact on
      the EEP and its ability to protect the American worker?

Scope

The audit scope was Federal inspections conducted between October 1, 2003, and
March 31, 2008, that were either designated as EEP or qualified under EEP criteria but
were not designated as such by OSHA for the Atlanta, Chicago, and Dallas regions.
The audit focus was on EEP designation, three EEP elements (enhanced follow-up
inspections, inspections of related worksites and enhanced settlement provisions), and
coordination activities through the National Office EEP log and EEP-Alert Memorandum.
Our analysis of OSHA's 2008 revised criteria covered the period January 1, 2008,
through November 19, 2008.

We conducted our audit in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a sufficient basis for our findings and conclusions based on our audit
objectives.

A performance audit includes an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other compliance requirements. In order to plan our performance audit,
we considered whether internal controls significant to the audit were properly designed
and placed in operation. However, we did not assess overall internal controls.

Methodology

In planning and performing our audit, we considered OSHA internal controls by
obtaining an understanding of the program’s internal controls, determining whether
internal controls had been placed in operation, assessing control risk, and performing
tests of controls in order to determine our auditing procedures for the purpose of
achieving our objectives. Therefore, we evaluated OSHA internal controls pertaining to
the classification and management of EEP cases, and assessed the reliability of
inspection data maintained in IMIS. We reviewed OSHA policies and procedures;

                                                         OSHA Enhanced Enforcement Program
                                            31                  Report No. 02-09-203-10-105
                                           U.S. Department of Labor – Office of Inspector General

reviewed reports on IMIS controls; conducted tests of IMIS data accuracy; and reviewed
internal monitoring reports. We interviewed OSHA officials at six Area and four Regional
Offices; and officials at the National Office Directorate of Enforcement, Directorate of
Information Technology, Directorate of Construction, Directorate of Evaluations and
Audit Analysis, Directorate of Cooperative and State Programs, and the Office of
Statistical Analysis. Our consideration of internal controls would not necessarily disclose
all matters that might be reportable conditions. Because of inherent limitations in
internal controls, misstatements or noncompliance may nevertheless occur and may not
be detected.

Three OSHA Regions (Boston, New York, and Denver) conducted EEP-focused
monitoring reviews and found issues with designation and follow up. We reviewed the
monitoring review reports, and interviewed New York Regional staff to identify potential
best practices.

Fieldwork was conducted at OSHA National Office; 3 Regional Offices (Atlanta, Chicago
and Dallas) which had 59 percent of EEP qualifying cases, and 6 Area Offices (Chicago
North, Fort Lauderdale, Fort Worth, Houston North, Houston South, and Tampa).

Assessing the Reliability of Computer Based Data

In planning and performing the audit, we relied on computer-generated data maintained
in IMIS which was designed as an information resource and management tool for in-
house use by OSHA staff and management, and by state agencies that carry out
Federally-approved OSHA programs. Information is entered in the IMIS by the local
Federal or state offices as events occur in the course of agency activities.

We determined that the data were sufficiently reliable through review of prior OIG’s
audits of OSHA’s IMIS under Federal Information Security Management Act and
Federal Information System Controls Audit Manual, discussion with participating
auditors the scope and findings related to IMIS, and obtaining information on the status
of recommendations from the OIG audit tracking system. We tested the data for
completeness through analytical tests to verify that all EEP and potential EEP cases
were identified. Finally, the EEP and violation coding elements were traced to source
documents for sampled cases.

Analytical Tests and Sampling

For the audit period, we sampled a total of 325 inspections from the Atlanta, Chicago
and Dallas Regional Offices – 282 EEP qualifying inspections and 43 inspections that
did not qualify under EEP. We reviewed the inspection case files, OSHA’s IMIS online
data and EEP log entries. For 7 of the 325 inspections, OSHA did not provide the
inspection case files because the files were missing in the Area Office or archives, or in
one 2003 case, had been destroyed by archives. For these seven inspections, we relied
on IMIS on-line data and EEP log entries for our analyses.



                                                         OSHA Enhanced Enforcement Program
                                            32                  Report No. 02-09-203-10-105
                                           U.S. Department of Labor – Office of Inspector General

Our samples included stratified random samples of 80 EEP designated inspections and
65 undesignated EEP-qualified inspections, and judgmentally selected 180 additional
inspections for 75 employers with multiple EEP inspections or fatalities.

For random sampling purposes, we obtained extract reports of OSHA’s IMIS for the
period October 1, 2003 through March 31, 2008, and performed analytical tests before
sampling cases. The extract reports included:

   1. EEP Identified Cases – Inspections coded in IMIS as EEP as of August 14, 2008
      (totaling 2,986 inspections).

   2. EEP “Should Be” Cases - Inspections which may meet EEP criteria:

       a. 4,866 cases with one or more fatality (as of July 14, 2008).
       b. 44,447 cases with three or more serious violations (as of July 17, 2008).
       c. 315 cases with one or more failure to abate violations (as of August 8, 2008).

The second set of extract reports were filtered down to a total of 537 “Should Be”
inspections using the specific criteria and on-line IMIS data to identify cases which met
the criteria for EEP (as fatality, non-fatality, and failure-to-abate), and removing
duplicative cases.

   •   Fatality cases were filtered by whether the case had a serious violation related to
       the fatality, and removing cases which had been designated as EEP. For 2008,
       fatality cases were also filtered by whether the case had qualifying history or
       willful and/or repeat violations. From 4,866 inspections with one or more fatality,
       447 qualified as EEP and were not designated in IMIS.

   •   Non-fatality cases with three or more serious violations were filtered by whether
       the case had three or more willful and/or repeat violations, and for 2008, if the
       case had qualifying similar in-kind history. From 44,447 inspections with three or
       more serious violations, 72 qualified as EEP and were not designated in IMIS.

   •   Failure-to-abate cases were filtered by whether the underlying violation was
       coded as serious. From 315 inspections with one or more failure to abate
       violations, 18 qualified as EEP and were not designated in IMIS.

Cases in the EEP extract and the “Should Be” filtered extracts were stratified by OSHA
Regional Office. Three Regions (Atlanta, Chicago and Dallas) accounted for 59 percent
of the such cases -- 56 percent of the EEP extract cases and 77 percent of the “Should
Be” filtered extract. We selected stratified random samples of 80 EEP and 65 “Should
Be” cases from the three regions. Results were not projected.

To illustrate the impact of EEP on specific employers, we identified employers with
multiple fatality and/or EEP qualifying inspections. This was done by initially combining
the EEP and the unfiltered Fatality extract reports for inspections in Atlanta, Chicago,

                                                         OSHA Enhanced Enforcement Program
                                            33                  Report No. 02-09-203-10-105
                                           U.S. Department of Labor – Office of Inspector General

and Dallas Regions. Duplicative entries were removed based on comparison of
inspection numbers. Due to name variations in IMIS, cases were matched to employers
based on the similarity of the establishment names and the mailing address. We
judgmentally selected 75 employers with 192 inspections in the three regions. As 12 of
the 192 inspections were already selected as part of the random samples, the judgment
sample totaled 180 inspections.

Other Analytical Tests of IMIS Data

1. To determine the impact of the 2008 criteria on EEP, we obtained and analyzed an
   extract of IMIS data for the period January 1, 2008, through November 19, 2008, for
   all inspections with one or more fatalities, and all inspections coded as EEP. The
   data was analyzed to determine: (a) the number of EEP designated fatality cases for
   2008 period; (b) the number of fatality inspections not designated as EEP, but met
   the criteria; and (c) the number of EEP designated fatality cases that do not meet
   EEP criteria (missing related event codes and/or qualifying history).

2. The EEP log was obtained from OSHA’s Directorate of Enforcement Programs on
   June 18, 2008, and was compared to the EEP extract report obtained on August 14,
   2008. In total, 679 EEP coded cases (of which 394 were fatality inspections) were in
   the IMIS report and not in the EEP log. For sampling purposes, we relied on IMIS
   data as those reports were more current and complete.

3. To determine whether employers were on the SST lists when they were designated
   for EEP, and whether SST inspections were performed subsequent to the EEP case,
   we obtained and compared (a) the SST primary and secondary lists; and (b) SST
   program inspections for Fiscal Years 2003 through 2008. The SST program
   inspections list was an extract from IMIS obtained from OSHA’s Directorate of
   Information Technology on January 8, 2009.

Criteria

We used the following criteria to perform this audit:

   •   OSH Act of 1970 and OSH regulations, 29 CFR 1902, et seq.

   •   OSHA Instruction CPL 02-00-145, Enhanced Enforcement Program (EEP),
       January 1, 2008

   •   EEP Interim Implementation Criteria

           o Memorandum to Regional Administrators from R. Davis Layne, Deputy
             Assistant Secretary, September 30, 2003, Subject: Interim Implementation
             of OSHA's Enhanced Enforcement Program (EEP)




                                                         OSHA Enhanced Enforcement Program
                                             34                 Report No. 02-09-203-10-105
                                     U.S. Department of Labor – Office of Inspector General

       o Memorandum to Regional Administrators from Richard E. Fairfax,
         Director, Directorate of Enforcement Programs, October 16, 2003,
         Subject: Enhanced Enforcement Program (EEP) IMIS Coding

•   OSHA Instruction CPL 02-00-103, Field Inspection Reference Manual (FIRM),
    September 26, 1994

•   OSHA Instruction CPL 02-00-137, Fatality/Catastrophe Investigation Procedures,
    April 14, 2005

•   OSHA Notice 06-01, Site-Specific Targeting 2006 (SST-06), June 12, 2006




                                                   OSHA Enhanced Enforcement Program
                                      35                  Report No. 02-09-203-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                           OSHA Enhanced Enforcement Program
              36                  Report No. 02-09-203-10-105
                                      U.S. Department of Labor – Office of Inspector General

                                                                             Appendix C
Acronyms and Abbreviations


  ALJ           Administrative Law Judge

  BLS           Bureau of Labor Statistics

  CPL           Enforcement and Complaint Directive

  DOL           Department of Labor

  EEP           Enhanced Enforcement Program

  EEP Log       National Office EEP Log

  IMIS          Integrated Management Information System

  OIG           Office of Inspector General

  OSA           OSHA’s Office of Statistical Analysis

  OSHA          Occupational Safety and Health Administration

  OSH Act       Occupational Safety and Health Act of 1970

  SST           Site Specific Targeting Program




                                                    OSHA Enhanced Enforcement Program
                                       37                  Report No. 02-09-203-10-105
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                           OSHA Enhanced Enforcement Program
              38                  Report No. 02-09-203-10-105
                                          U.S. Department of Labor – Office of Inspector General

                                                                                 Appendix D
Glossary of Terms


1. Abatement - Action by an employer to comply with a cited standard or to eliminate a
   recognized hazard identified by OSHA during an inspection. [29 CFR 1903.19(b)(1)]

2. Alternate Worksite Inspection - Other related worksites of the same employer
   (those not on the current SST inspection lists) may be inspected if there are
   reasonable grounds to believe problems similar to those found in the EEP case may
   exist at the other worksite. The scope of inspection will mainly focus on hazards that
   are the same as or similar to those found in the EEP case.

3. Contest – Any employer, to whom a citation or notice of proposed penalty is issued,
   may contest or dispute such citation and/or proposed penalty before the Review
   Commission.

4. Enhanced Follow-up Inspection - The primary purposes of follow-up inspections in
   EEP cases are to assess whether the cited violation(s) were abated and whether the
   employer is committing similar violations. Compelling reason not to conduct a follow-
   up inspection shall be documented in the file and include: worksite closed, out of
   business, operation cited has been discontinued at the worksite, worksite moved out
   of Area Office jurisdiction, case no longer meets any of the EEP criteria because
   citation has been withdrawn/vacated, or EEP violation(s) currently under contest.

5. Enhanced Settlement Agreement - Settlement agreements where OSHA has
   insisted that employers take steps to address systemic compliance problems or to
   provide OSHA with information that will enable it to take follow-up action. Specific
   provisions include some or all of the following.

      a. Requiring the employer to hire a qualified consultant to develop an effective
         and comprehensive safety and health program with management support in
         the establishment and assist the company in implementing such a program;

      b. Applying the agreement company-wide;

      c. Using settlement agreements to obtain from employers a list of their current
         jobsites, or future jobsites within a specified time period;

      d. Requiring the employer to submit to OSHA its Log of Work-related Injuries
         and Illnesses on a quarterly basis, and to consent to OSHA's conducting an
         inspection based on the report;

      e. Requiring the employer to notify the Area Office of any serious injury or illness
         requiring medical attention and to consent to an inspection; and



                                                        OSHA Enhanced Enforcement Program
                                           39                  Report No. 02-09-203-10-105
                                            U.S. Department of Labor – Office of Inspector General

       f. Obtaining employer consent to entry of a court enforcement order under
          Section 11(b) of the Act.

6. Final Order – The citation/notice of proposed penalty and abatement date becomes
   a final order after the contest and appeal process has been completed. Final order
   occurs at the end of the 15-day contest period if no contest was filed, or 15 working
   days after signing an Informal Settlement Agreement. Otherwise, final order occurs
   when the case has reached the highest level of review: 30 days after docketing of
   the Administrative Law Judge’s (ALJ) order for Formal Settlement Agreements, and
   ALJ decisions/reports; 60 days after the Notice of Commission Decision; or 90 days
   after entry of the judgment by the U.S. Court of Appeals unless appealed to the U.S.
   Supreme Court.

7. Imminent Danger - Section 13(a) of the Act defines imminent danger as ". . . any
   conditions or practices in any place of employment which are such that a danger
   exists which could reasonably be expected to cause death or serious physical harm
   immediately or before the imminence of such danger can be eliminated through the
   enforcement procedures otherwise provided by this Act.”

8. Related Event Code - The OSHA-1B form provides specific supplemental
   information documenting hazards and violations. If any item cited is directly related
   to the occurrence of the fatality or catastrophe, the related event code "A" shall be
   entered. If multiple related event codes apply, the only code that has priority over
   relation to a fatality/catastrophe ("A") is the relation to an imminent danger ("I").

9. Related Worksite Inspections - Establishments are related when there is common
   ownership. Related establishments include establishments of corporations that are
   in the same corporate family, such as a parent corporation and all subsidiary
   corporations, in which the parent has an ownership share of greater than 50 percent.

10. Similar in-kind history – “Similar in-kind” is broader than the "substantial" similarity
    that is required for a repeat citation. The 2008 EEP criteria provided the following
    examples for similar in-kind history.

       a. A prior fall from a scaffold is considered similar in-kind to a current fall through
          a floor opening, or a fall from a roof.

       b. A prior failure to provide hard hats is considered similar in-kind to a current
          failure to ensure respirator use, or a failure to train regarding personal
          protective equipment.

       c. A prior exposure to lead is considered similar in-kind to a current exposure to
          chemicals of a dipping/coating operation, or a failure to train on the hazards of
          the chemicals.




                                                          OSHA Enhanced Enforcement Program
                                             40                  Report No. 02-09-203-10-105
                                          U.S. Department of Labor – Office of Inspector General

11. Site Specific Targeting (SST) – OSHA’s main programmed inspection plan for non-
    construction workplaces that have 40 or more employees. The SST plan is based on
    the data received from the prior year’s OSHA Data Initiative survey. The Data
    Initiative survey and the SST program help OSHA achieve its goal of reducing the
    number of injuries and illnesses that occur at individual workplaces by directing
    enforcement resources to those workplaces where the highest rate of injuries and
    illness have occurred.

12. State Plan State - Section 18(b) provides that any State that desires to assume
    responsibility for the development and enforcement therein of occupational safety
    and health standards relating to issues covered by corresponding standards
    promulgated under section 6 of the Act shall submit a plan for doing so to the
    Assistant Secretary.

13. Violation Types –

      a. Serious Violation - Section 17(k) of the Act provides "... a serious violation
         shall be deemed to exist in a place of employment if there is a substantial
         probability that death or serious physical harm could result from a condition
         which exists, or from one or more practices, means, methods, operations, or
         processes which have been adopted or are in use, in such place of
         employment unless the employer did not, and could not with the exercise of
         reasonable diligence, know of the presence of the violation.”

      b. Willful violation - A willful violation exists under the Act where the evidence
         shows either an intentional violation of the Act or plain indifference to its
         requirements. The employer committed an intentional and knowing violation
         if: (1) An employer representative was aware of the requirements of the Act,
         or the existence of an applicable standard or regulation, and was also aware
         of a condition or practice in violation of those requirements, and did not abate
         the hazard. (2) An employer representative was not aware of the
         requirements of the Act or standards, but was aware of a comparable legal
         requirement (e.g., state or local law) and was also aware of a condition or
         practice in violation of that requirement, and did not abate the hazard.

      c. Repeat Violation - An employer may be cited for a repeated violation if that
         employer has been cited previously for a substantially similar condition and
         the citation has become a final order.

      d. Failure to Abate Violation - Failure to abate exists when the employer has
         not corrected a violation for which a citation has been issued and abatement
         date has passed or which is covered under a settlement agreement, or has
         not complied with interim measures involved in a long-term abatement within
         the time given.




                                                        OSHA Enhanced Enforcement Program
                                           41                  Report No. 02-09-203-10-105
                                     U.S. Department of Labor – Office of Inspector General

e. Other than Serious Violation - This type of violation shall be cited in
   situations where the most serious injury or illness that would be likely to result
   from a hazardous condition cannot reasonably be predicted to cause death or
   serious physical harm to exposed employees but does have a direct and
   immediate relationship to their safety and health.




                                                   OSHA Enhanced Enforcement Program
                                      42                  Report No. 02-09-203-10-105
                                U.S. Department of Labor – Office of Inspector General

                                                                       Appendix E
OSHA Response to Draft Report




                                              OSHA Enhanced Enforcement Program
                                 43                  Report No. 02-09-203-10-105
U.S. Department of Labor – Office of Inspector General




              OSHA Enhanced Enforcement Program
 44                  Report No. 02-09-203-10-105
U.S. Department of Labor – Office of Inspector General




              OSHA Enhanced Enforcement Program
 45                  Report No. 02-09-203-10-105
U.S. Department of Labor – Office of Inspector General




              OSHA Enhanced Enforcement Program
 46                  Report No. 02-09-203-10-105
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

  Online:      http://www.oig.dol.gov/hotlineform.htm
  Email:       hotline@oig.dol.gov

  Telephone:   1-800-347-3756
               202-693-6999

  Fax:         202-693-7020

  Address:     Office of Inspector General
               U.S. Department of Labor
               200 Constitution Avenue, N.W.
               Room S-5506
               Washington, D.C. 20210
